<html>
<title> - A GROWING CAPITOL COMPLEX AND VISITOR CENTER: NEEDS FOR TRANSPORTATION, SECURITY, GREENING, ENERGY, AND MAINTENANCE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
          A GROWING CAPITOL COMPLEX AND VISITOR CENTER: NEEDS 
                     FOR TRANSPORTATION, SECURITY, 
                   GREENING, ENERGY, AND MAINTENANCE 

=======================================================================

                               (110-107)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 1, 2008

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

41-771 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 











             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ACURI, New York           CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin               ROBERT E. LATTA, Ohio
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey

                                  (ii)

  


 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

           ELEANOR HOLMES NORTON, District of Columbia, Chair

MICHAEL H. MICHAUD, Maine            SAM GRAVES, Missouri
JASON ALTMIRE, Pennsylvania          BILL SHUSTER, Pennsylvania
MICHAEL A. ARCURI, New York          SHELLEY MOORE CAPITO, West 
CHRISTOPHER P. CARNEY,               Virginia
Pennsylvania, Vice Chair             CHARLES W. DENT, Pennsylvania
TIMOTHY J. WALZ, Minnesota           JOHN R. `RANDY' KUHL, Jr., New 
STEVE COHEN, Tennessee               York
JAMES L. OBERSTAR, Minnesota         JOHN L. MICA, Florida
  (Ex Officio)                         (Ex Officio)

                                 (iii)


















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Ayers, Stephen T., AIA, Acting Architect of the Capitol, U.S. 
  Capitol........................................................    10
Beard, Hon. Daniel P., Chief Administrative Officer, U.S. House 
  of Representatives.............................................    10
Moneme, Emeka, Director, District of Columbia Department of 
  Transportation.................................................    30
Morse, Chief Phillip, U.S. Capitol Police........................    30
Pantuso, Peter, President and Chief Executive Officer, American 
  Bus Association................................................    49
Pew, James, EarthJustice.........................................    49
Rouse, Terrie, Chief Executive Officer for Visitor Services, 
  Capitol Visitor Center.........................................    10

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................    60
Norton, Hon. Eleanor Holmes, of the District of Columbia.........    61
Oberstar, Hon. James L., of Minnesota............................    64

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Ayers, Stephen T.................................................    68
Beard, Daniel P..................................................    84
Moneme, Emeka....................................................    87
Morse, Sr., Chief Phillip D......................................    91
Pantuso, Peter J.................................................   100
Pew, James Samuel................................................   148
Rouse, Terrie S..................................................   152

                       SUBMISSION FOR THE RECORD

Ayers, Stephen T., AIA, Acting Architect of the Capitol, U.S. 
  Capitol, response to question from Rep. Mica...................    18

                         ADDITION TO THE RECORD

Architect of the Capitol, White Paper, drafted in response to 
  comments made by James Pew during the hearing..................   155

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



  HEARING ON A GROWING CAPITOL COMPLEX AND VISITOR CENTER: NEEDS FOR 
       TRANSPORTATION, SECURITY, GREENING, ENERGY AND MAINTENANCE

                              ----------                              


                         Tuesday, April 1, 2008

                  House of Representatives,
    Committee on Transportation and Infrastructure,
Subcommittee on Economic Development, Public Buildings and 
                                      Emergency Management,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:13 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Eleanor 
Holmes Norton [Chairwoman of the Subcommittee] presiding.
    Ms. Norton. Good morning and welcome to today's hearing. I 
especially welcome our distinguished witnesses and look forward 
to their testimony.
    Today, the Subcommittee plans to examine the long-term 
master plan for the Capitol Complex and the efforts of the 
Architect of the Capitol and other officials who must work as 
partners to account for the rapidly changing needs and concerns 
of the entire complex, including the challenges posed by 
transportation, security, energy, greening, the new Capitol 
Visitor Center and the mounting infrastructure backlog in 
urgent need of attention.
    The extraordinary centerpiece, the U.S. Capitol, whose 
construction began in 1793, has a long and storied history. As 
documented in our Subcommittee hearing on September 25th, 2007, 
to authorize the naming of Emancipation Hall in the CVC, 
workers who built the Capitol included enslaved blacks and 
indentured servants.
    A striking new Visitor Center, which I visited again 
yesterday, is expected to open later this year. However, this 
hearing is not about the centerpiece Capitol and the CVC alone. 
Today, we are examining the entire campus and all the 
components that comprise today's Capitol.
    Although the Senate and the House had office buildings 
beginning in the early 20th Century, the Capitol Complex, so 
called, is fairly vintage. The Capitol became a complex only 
beginning the 1930s during the Great Depression when the 
Federal Government built most of its structures here and on 
Independence and Constitution Avenues.
    Construction of the lion's share of the Capitol's office 
buildings began with the Botanic Gardens in 1933. The rest of 
the complex was only gradually added in the 1960s and the 
1980s, ending with the Thurgood Marshall Judicial Building near 
Union Station in 1992.
    Today, the Capitol Complex consists of the House and Senate 
office buildings, the Supreme Court, the Library of Congress, 
the Botanic Gardens, the Capitol Power Plant and other 
buildings, extensions, additions and renovations. The Capitol 
Complex is comprised of 16.5 million square feet and stretches 
over 450 acres. However, neither the best known historic 
buildings nor the newer structures constitute the only or even 
the primary focus of today's hearing.
    Much of the $3.2 billion needed over the next 5 years would 
go to parts of the complex that are most desperately in need of 
support but that the public never sees such as firefighter 
telephones and the notorious House tunnels that have adversely 
affected the health of workers in the Capitol. Time and again, 
this Subcommittee has found that asset management and 
maintenance is just as important as the time, care and funds 
used to do new construction and deserves just as much 
attention.
    Of particularly deep concern to the Subcommittee is:
    The inattention to the deteriorated infrastructure and 
energy plants that support the vital buildings;
    The absence of long-range planning, using a master plan 
until mandated in 2001;
    Controversy concerning whether the transportation plan will 
accommodate millions of additional visitors drawn by the new 
CVC, major closures of necessary thoroughfares;
    Primitive security screening that keeps constituents of 
Members of the House and Senate and other visitors lined up in 
the cold and the heat, waiting to go through old-fashioned 
magnetometers;
    A Capitol overlay from two years ago that attempted 
needlessly to preempt development in the District by fiat until 
we stopped it; and
    An environmental and carbon footprint complete with a coal-
based power plant that makes Congress appear oblivious of the 
environmental implications until last year when Speaker Nancy 
Pelosi began her greening of the Capitol initiative.
    Today, we take the first hard look at long-term plans to 
maintain the beauty and majesty of the United States Capitol 
Complex. With the completion of the new 580,000 square foot 
capitol Visitor Center, now is the time for this Subcommittee 
to look closely at the entire complex of which the CVC site is 
only one part, so that the Subcommittee and the Transportation 
and Infrastructure Committee can draw upon its long collective 
expertise in construction management and long-term capital 
asset planning to ensure the integrity and beauty of the U.S. 
Capitol Complex.
    Tellingly, it was the Senate Appropriations Committee that 
first required a Capitol Complex master plan seven years ago, 
and the House and Senate Appropriations Committees annually 
give the oversight necessary to approve the yearly 
appropriations for the Capitol Complex. However, only this 
Subcommittee and our Full Committee are equipped to do the in-
depth continuing oversight that a growing capitol requires.
    This oversight lapsed for years until we resumed oversight 
last year with three hearings that included two by this 
Subcommittee, a hearing on the CVC including transportation and 
security and another on the naming of Emancipation Hall as well 
as testimony before the Full Committee by the Architect of the 
Capitol during climate change and energy independence hearings.
    The Full Committee and the Subcommittee have a special 
interest in the energy and conservation issues raised by 
expanding the Capitol Complex. It will be particularly 
important to examine the energy efficiency efforts contemplated 
by the Capitol Complex.
    In the most recent energy bill, Public Law 110-140, the 
Architect is directed to examine the feasibility of placing 
photovoltaic roofs on the Rayburn House office building in 
addition to an authorization to build an E85 fueling station 
and, to the greatest extent practical, to implement greening 
and conservation measures to the operations of the Capitol. We 
are interested in how the AOC plans to prepare and carry out 
these directives as well as any other initiatives that the 
Architect and his partners are contemplating in future 
planning.
    My personal interest and devotion to the Capitol Complex 
is, of course, deep seated, not only because I represent the 
District of Columbia but especially in my role as Chair of our 
Subcommittee with jurisdiction over the Capitol program of the 
Architect of the Capitol.
    I am also delighted to live on Capitol Hill and to count 
the Capitol and its campus as my neighbor. My Capitol Hill 
neighbors and I expect the Architect of the Capitol and our 
partners to continue to be a good neighbor.
    We look forward very much to learning from today's 
witnesses. We thank the Architect, the Capitol Police Chief, 
the Chief Administrative officer and other partners within the 
U.S. Capitol Complex for their testimony.
    I would like now to ask Mr. Graves, our Ranking Member, if 
he has any opening remarks.
    Mr. Graves. Thank you, Madam Chair, for having this 
hearing.
    I want to thank all of our witnesses for coming today.
    In particular, I want to recognize Mr. Ayers. I do 
appreciate your coming today to tell us about the Capitol 
Complex master plan. The planning process you have undertaken 
has been needed for some time. It is the right approach, and it 
is an important step to ensuring that our Capitol facilities 
are here for generations to come.
    While we are stewards of these great buildings, we are also 
stewards of the taxpayers' money, and it is imperative we have 
a master plan that funds the most critical and cost-effective 
projects first. Without this approach to long-term planning, 
Capitol facilities will experience system failures, building 
closures and cost more money in the long run.
    It is clear from the Architect's budget, the Capitol 
Complex is facing a looming crisis. This is one of the first 
time's the Architect's budget is based on a needs assessment of 
facilities rather than an estimate of what will be received 
through the appropriations process. This assessment shows the 
facility requirements and new mandates far exceed available 
funding.
    The Architect has reported a $600 million backlog in 
deferred maintenance projects to fix systems that are already 
broken. In addition, there is an $800 million backlog in 
capital renewal projects to fix systems that are predicted to 
fail in the near future.
    We face this crisis because of the absence of a clear 
vision of the long-range capital requirements and priorities 
for the Capitol Complex. Instead, facilities projects and their 
associated funding have changed dramatically from year to year. 
Additionally, too often, we have rushed from crisis to crisis 
which has resulted in short-term, short-sighted decisions with 
the most expensive outcome. This is no way to run a large 
infrastructure program.
    The utility tunnel project currently underway is a prime 
example of this. Instead of upgrading these tunnels in a 
reasonable time frame, we now have to drop other projects and 
spend $300 million just to repair these tunnels in compliance 
with the settlement agreement.
    It is important to me that we end up getting the most for 
the taxpayers' dollars. While the Capitol Complex master plan 
is an important step forward, I am concerned the project 
prioritization process may not fund the most critical or cost-
effective projects first. Instead, the process appears to put 
energy projects before deferred maintenance and renewal 
projects regardless of whether they are cost effective.
    Once more, I would like to commend your efforts on the 
Capitol Complex master plan and offer you the Subcommittee's 
assistance to ensuring its effectiveness.
    Again, I want to thank everyone for being here today, and I 
look forward to your testimony.
    Ms. Norton. Thank you very much, Mr. Graves.
    May I ask the Ranking Member, who specifically was anxious 
that we hold this hearing and we assert our jurisdiction, if he 
has any opening remarks as well.
    Mr. Mica. Well, first of all, I want to thank Chairman 
Norton and also Ranking Member Graves for holding this meeting.
    I did request some time ago that as one of my priorities 
that our Committee and this Subcommittee, in particular with 
jurisdiction, conduct this type of forum and hearing because I 
think it is imperative as we, as the Ranking Member said, are 
stewards of the United States Capitol Complex and the building, 
the Capitol building itself, one of the most historic 
structures in the United States and recognizable symbols, an 
edifice of liberty in our system of government. So we do have a 
distinct role and responsibility.
    I think as good stewards also, I would have to agree with 
both the Chairman and Ranking Member that we do have a plan and 
that this Committee exercise its jurisdiction in adopting a 
plan. I think what we are doing here and what has been done 
here is a step in the right direction.
    Unfortunately, part of the problem in the past has not only 
been one of authorization of projects but also of funding of 
projects, and that has been done on a helter-skelter basis and 
sort of the biggest project or the most critical project at the 
time gets the most funding. Probably, I am as guilty as anyone, 
having advocated the Capitol Visitor Center which I saw a need.
    Prior to that, I worked extensively on some of the 
retrofitting of the Capitol to make it ADA-compliant for those 
Americans and other visitors with disabilities who come to this 
complex to meet with their Representatives and didn't have 
access that ordinary citizens were guaranteed outside the 
purview of the Capitol Complex and the legislative arena.
    So we made some good progress. I think this setting forth a 
plan will be excellent. We will have done our job. Then, 
hopefully, these projects then can be appropriated on a 
prioritized basis.
    I think the Ranking Member has also said that 
prioritization process, we have to take a very serious look at 
that. Some life-health-safety things just can't wait.
    The $3.2 billion over five years is just sort of fix-it 
money. That doesn't take care of, I am told, problems, massive 
renovation projects. One, for example, the Cannon Building, I 
am told now the price tag may reach a half a billion dollars to 
renovate that complex. That is not included in the $3.2 
billion.
    So we are going to face some fiscal challenges, some 
prioritization challenges. We can't do everything, and we don't 
have unlimited amount of money.
    First, I want to thank publicly, Mr. Ayers and his 
predecessor, Alan Hantman. Alan Hantman will go down in history 
as one of the greatest architects in the history of the United 
States Capitol, without question. History will see him in that 
light and others who worked with him to bring forth 
magnificence.
    The Chairman said she was down yesterday. The American 
people can be proud, absolutely proud of that complex.
    I know it has cost more, but if you start out by saying you 
are going to build a 2,000 square foot house and you end up 
with a 5,000 square foot house, it costs more. If you say that 
you are going to change the plans after you have already 
designed the initial plans for that 2,000 square foot house and 
you are going to have bio-chem components and security measures 
that are unprecedented in the construction of a building, you 
are going to have additional costs.
    During the period of construction, we built the Capitol 
Visitor Center and we often had dramatic increases in costs, 
all of which get to the point that I think we got an excellent 
deal for the taxpayer, a magnificent structure.
    Most people don't know it, but we actually raised about 
half of what the original cost of the building was projected to 
be from private donations. Most people don't have a clue 
because most of them were not involved in that process. In 
fact, I had the opportunity to host the last fundraiser for the 
private money for the Capitol Visitor Center on the evening of 
September 10th, 2001, an irony that had me here the next day on 
that historic day.
    Finally, in closing, Madam Chairman, I have a new request. 
We are looking at the mega-project of the Capitol Complex. The 
Capitol Building itself, I am becoming very concerned about. I 
have to say, first, I think the Republicans did not do an 
adequate job in being good stewards of some of the spaces, 
although there were confinements in the space, and I think our 
Democrat new majority is repeating the same mistake.
    First of all, I am going to ask through letter today and 
ask the Chairman if she will join me or the Ranking Member--I 
welcome both--to have an inventory of the historic rooms in the 
United States Capitol Building. I would like to have either to 
me or the Committee that information provided, hopefully, in 
this record a list of those buildings and then a list of rooms 
that have the potential for being used for public access as 
opposed to individual leader's or individual Member's 
utilization in the Capitol.
    As we transition to the Visitor Center, there is some space 
in that complex as we have taken over spaces in some of the HC 
areas. We need to be looking at what can be open, not closed, 
to the public. I will give you two examples.
    We actually have diminished with the construction of the 
Visitor Center. EF-100 no longer exists. So we have lost that 
public space.
    A room that was given to Mr. Hastert who became the 
immediate past Speaker of the House, which is on the first 
floor, when Mr. Hastert left recently, has now become a press 
office for someone--a historic, beautiful room.
    So what I see is the gradual and continual erosion of 
historic sites particularly on the House side. We can't do a 
lot about the Senate. But I am going to ask for that inventory 
be provided, and then I want to use that as the template so 
that we could plan on the opening of more spaces in the Capitol 
for public and general use by Members as opposed to squirreling 
away these spaces that the public continues to be deprived 
access to.
    Thank you so much again for your cooperation, and I look 
forward to comments from our witnesses.
    Ms. Norton. Well, thank you very much, Mr. Mica. I 
certainly agree with you about the majesty and beauty of the 
new CVC, really. The workmen are gone. I see no reason for 
there to be yet another delay in when they open it.
    I certainly join you in your concern about how space 
requirements will be changed by the renovations. Yes, we are 
always scrambling for public access rooms, and I do think that 
we need to look at the whole complex in that way again. I am 
sure the Ranking Member will note that when I went to look 
yesterday, they told me that some of the Senate's hideaways had 
been removed, those places, those extra rooms that some of them 
had, to make room for the CVC.
    So I certainly would join you in looking at the space 
requirements here anew and in seeing whether there could be 
afforded more space. I was pleased to see that there will be 
some additional space in the CVC. But, again, how does that 
really figure into our needs?
    If I could ask the Ranking Member when he asks for a 
inventory of the historic rooms, by that, what do you mean, an 
inventory?
    Mr. Mica. Again, within the Capitol Building itself, the 
core of the Capitol Building, we have historic rooms and 
spaces.
    For example, I don't want to get into the physician's 
office but across from the physician's office, I gave the 
example of the space that was afforded to Mr. Hastert. He left, 
and I walk down the hall, and now it is a press office. That is 
a gorgeous room that should be available. It is one of the 
rooms that has the potential to be made available to the 
public.
    We have the Sergeant at Arms in a location. I don't know 
where he will finally end up, but if you look at the House 
side, there are only a handful of rooms that can be used for 
public meetings or for access. The Senate, of course, as a 
smaller body, has many more rooms.
    But as we make this transition, let's inventory those 
rooms, that the Architect can say yes, this is a historic part 
of the Capitol. This is a room that could be restored. Many of 
them are absolutely gorgeous, fireplaces, vaulted ceilings, 
some paintings, and they have been absconded by whomever, 
whether it was Republicans or, now, Democrats.
    If we have an inventory of those rooms in the historic 
Capitol itself, I don't want to detract from the purpose of 
today's hearing which is to look at the mega-planning for the 
whole complex, but one of the most important structures in the 
Nation, in the world, is that historic building. Again, the 
space that is available even for Members for use for public 
meetings has diminished and continues to shrink.
    So if we could open some of that up. Again, by inventory, 
we can see what is available, what might be conducive, and also 
looking at the spaces we have within the Visitor Center or in 
some of the places that have been closed off for construction 
where we will be moving other activities back to.
    I will be glad to work with staff.
    Ms. Norton. Thank you very much, Mr. Mica.
    I do want to note that the shortage of space here has a lot 
to do with the fact that there is no place to go. I heard some 
really crazy schemes about building new office space or having 
office space down in the garage of the Rayburn. Forget about 
it.
    We are going to have to learn to live mostly in this very 
tight city called the Nation's Capital by, yes, making new use 
of old spaces. I don't know where you would build a new office 
space. Sorry, the last space for that was taken by the 
Nationals baseball team.
    The full Chairman of the Committee has been kind enough to 
join us, and he has had a long-term interest and concern about 
the subject matter of today's hearing. I would like to ask Mr. 
Oberstar if he has any opening remarks.
    Mr. Oberstar. Madam Chair, thank you very much for 
launching this hearing, for the effort you have put in 
personally to the matter.
    Mr. Mica has had a longstanding and very keen professional 
interest in the National Visitor Center and all the activities 
and responsibilities of the Office of the Architect of the 
Capitol.
    I just feel fortunate to be here this morning, frankly. 
Well, no. I left our little townhouse in plenty of time to get 
here, well in advance of the hearing, and then there was a 
three car accident just ahead of me on the entrance to the 
Clara Barton Parkway and four rescue vehicles and another one 
headed toward it. I just felt fortunate to not have been there 
three minutes earlier or I had been probably in that mess.
    So I took an alternate route, took Canal Road, and there 
was a two car accident on it. I said, I am never getting in 
today.
    Parenthetically also, I am feeling additionally blessed to 
be here this morning. Three weeks ago, I was on the operating 
of the Mayo Clinic, getting a new hip installed, my right hip. 
Today, I am walking without cane, without crutch, without 
walker and without pain. I tell you, it is a whole new life.
    Thank you.
    Ms. Norton. Mr. Chairman, if I might say so, I think that 
is from a life spent both cycling and walking.
    Mr. Oberstar. Well, good genes do no harm. Thank your 
parents and thank the Lord.
    I think we now have with the Office of the Architect of the 
Capitol, largely because of bipartisan prodding and pushing and 
directives in the legislation our Committee reported that 
became part of the Energy Security and Climate Change Act, we 
now have a Capitol Complex master plan. I think it is the first 
time we had a credible one since George White was Architect of 
the Capitol and maybe even before him.
    I remember serving on staff at the time of my predecessor, 
John Blatnik. Over there in the corner, his portrait hangs in 
this Committee room. He was frustrated that this 
extraordinarily precious historic structure did not have a 
comprehensive overall master plan.
    Congress had no way of measuring progress, assessing the 
needs that our Committee which has responsibility for these 
activities did not an effective road map of what was needed to 
continue the maintenance and upkeep of this extraordinary 
structure.
    We now have one. George White developed such a plan. His 
was the first to propose such a Visitor Center underground, 
much like what we have today but not nearly so elaborate as the 
one that is now in place.
    We also have, as a result of the energy legislation, a very 
specific set of requirements for the Architect of the Capitol 
and a report on the status of each of the several items which 
are very well laid out in the briefing document accompanying 
this hearing.
    I would like to work with our Subcommittee Chair, Ms. 
Norton, with Ranking Member Graves over here and with Mr. Mica, 
our Full Committee Ranking Member, to develop jointly a long-
term authorization bill that is a multi-year authorization bill 
for the Architect of the Capitol in which we will spell out 
specifically the needs, the authorization levels to address the 
backlog laid out in this report.
    I would suggest that we prioritize projects, that we 
require justification for projects, that we lay out and require 
the Architect of the Capitol showing of administrative cost 
savings.
    I think a multi-year authorization bill with specific 
goals, specific benchmarks, measurements, dollar amounts that 
we can evaluate periodically will be of great benefit to the 
Office of the Architect of the Capitol, to the Committee and 
indeed to the Congress and to the public who come here to visit 
this national and international treasure. We need a complete 
picture of what needs to be done and how much it will cost.
    In that authorization, we could include the request of the 
gentleman from Florida, Mr. Mica, for an inventory of 
facilities in the Capitol.
    We might get a lot of pushback, I would say to the 
gentleman, from our colleagues on the other side of the Hill. 
There are innumerable hideaways that are unlisted. It is like 
unlisted phone numbers in a book. They are not there. The rooms 
are there, but you don't know who has them and who is 
controlling.
    You got to a meeting with a United States Senator.
    Ms. Norton. Mr. Chairman, do they have any on this side of 
the Capitol?
    Mr. Oberstar. I don't know, but you go to a meeting with a 
United States Senator and they have a little hideaway here and 
they have a little hideaway over there.
    There are a lot of new hideaways that came to light in 1995 
when the new majority took over, and I discovered some rooms in 
which I went to meetings that I didn't know existed before. I 
thought I knew this place pretty well.
    I think it will be useful to have an inventory of rooms and 
who has control. It is always a murky business of who has 
control over those facilities. So I look forward, and I see the 
gentleman from Florida nodding that we will work together in 
developing such an initiative.
    Meanwhile, we will proceed with this hearing, and I want to 
thank the office of the Architect of the Capitol and Mr. Ayers, 
the Interim. It is kind of hard to be an Interim. You have all 
the responsibilities and authority only until you mess up, and 
then it is your problem, I guess.
    You and Mr. Beard have prepared a very useful and effective 
document, and we want to explore the issues laid out in the 
various sections Energy Independence Bill. Particularly, I want 
to see us proceed as vigorously as we possibly can with 
installation of photovoltaic systems on the Capitol.
    We need, and Mr. Mica has said this many times. Ms. Norton 
has said it. The Capitol should be the leader in the greening 
of America. If we are going to preach to others, then we ought 
to take care of our own house.
    And, the installation of meters. I will just tell one 
little anecdote. It was 1975. On the Senate floor, there was a 
vigorous debate about energy independence that President Nixon 
had launched and President Ford was going to carry through.
    The Senate was having this vigorous debate. It was 
February, and Senator Jennings Randolph pulled out a 
thermometer, held it up and said, look at temperature here. It 
is 72. We don't need to have 72 degrees on the floor of the 
Senate. We could be saving energy if we just turn the 
thermostat down.
    So, the next day, the Senators are all gathered for their 
meeting, and someone pulled out a thermometer, and it said 68. 
A reporter asked the engineer for the Office of the Architect 
of the Capitol, what did he do?
    He said, hell, we can't change anything. We just open the 
windows a little bit, open the vents and let some outside cold 
air in.
    That's not good enough. We need better metrics than that. 
The installation of a metering system as the Architect is doing 
in pursuance of this legislation will get us around such 
embarrassments, frankly, and lapses of good stewardship.
    Madam Chair, thank you. I've said well far enough, and it 
is important to hear from our witnesses.
    Ms. Norton. Well, thank you very much, Mr. Chairman. I am 
glad you are here, safe and sound.
    We will hear next from our first panel. We will hear first 
from Stephen Ayers, the Acting Architect of the Capitol, then 
from Terrie Rouse, the CEO of the Visitor Center and then from 
Daniel Beard, the Chief Administrative Officer of the House of 
Representatives.
    Why don't you proceed, Mr. Ayers?

  TESTIMONY OF STEPHEN T. AYERS, AIA, ACTING ARCHITECT OF THE 
 CAPITOL, U.S. CAPITOL; TERRIE ROUSE, CHIEF EXECUTIVE OFFICER 
FOR VISITOR SERVICES, CAPITOL VISITOR CENTER; AND THE HONORABLE 
 DANIEL P. BEARD, CHIEF ADMINISTRATIVE OFFICER, U.S. HOUSE OF 
                        REPRESENTATIVES

    Mr. Ayers. Madam Chair and Members of the Committee, thank 
you for inviting me here today to discuss the AOC's Capitol 
Complex Master Plan and to update you on the progress of the 
Capitol Visitor Center and our energy conservation efforts. I 
would like to begin with a brief overview of the CVC project. 
As you know, we have a great team of people working diligently 
behind the scenes, not only to build the Capitol Visitor Center 
but to ensure a safe, memorable, and educational visitor 
experience when it opens.
    The comprehensive fire alarm and life-safety testing 
continues to be performed as planned. Overall, we remain 
pleased with the progress being made. Crews are working to 
complete punch list items such as millwork, wall stone, floor 
stone, plaster work, carpeting and door hardware, among other 
finishes.
    We believe we are on schedule to receive a temporary 
certificate of occupancy on July 31st, 2008, as planned and 
will have the facility ready to open in November 2008, as 
currently scheduled.
    With the addition of the CVC and several facilities to our 
jurisdiction over the past several years, the AOC is now 
responsible for some 16.5 million square feet of buildings and 
nearly 450 acres of land. In recent years, the number and 
magnitude of our projects has also greatly increased.
    This means that there are many potential projects that call 
for our attention to ensure that these buildings continue to 
effectively serve Members of Congress. This includes ensuring 
that fire and life-safety deficiencies are corrected, and that 
significant resources are devoted to protecting the people who 
work in and visit the Capitol complex each day.
    In order to prioritize, coordinate, and effectively 
complete the many current and future projects we need to 
accomplish to meet the future needs of Congress, a 
comprehensive Capitol Complex Master Plan must be in place as a 
way to bring the future into the present.
    The first step in that planning process was to establish a 
baseline by which to measure and compare building conditions, 
plan and evaluate funding requirements, and determine 
priorities. We had independent experts complete facility 
condition assessments on most of our buildings here in the 
Capitol complex.
    These condition assessments validated a backlog of more 
than $600 million in deferred maintenance and $800 million in 
capital renewal projects with $900 million of this $1.4 billion 
being immediate or high priority. As the AOC continues to be 
unable to fund deferred maintenance, capital renewal and new 
projects and initiatives, this bow wave of unfunded 
requirements continues to grow.
    Ultimately, the Capitol Complex Master Plan will establish 
a framework that will help the Congress prioritize the 
maintenance, renovation, and construction of facilities over 
the next five, ten, and twenty years while allowing for prudent 
budgeting of costs necessary for upkeep and construction.
    The AOC has been engaged in energy savings activities since 
the energy crisis in the 1970s. Most recently, we have 
demonstrated our commitment to energy conservation by complying 
with the requirements of the Energy Policy Act of 2005. Under 
the Act, the AOC was required to reduce the amount of energy 
consumed per square foot in the Capitol complex in 2006 by 2 
percent as compared to a 2003 baseline, and I am pleased to 
report that we exceeded the goal of 2 percent by reducing 
energy consumption 6.5 percent in 2006.
    We exceeded this goal through a variety of projects and 
pilot programs including installing modern energy efficient 
lighting and comfort control systems, and replacing 
conventional incandescent light bulbs with compact fluorescent 
lamps campus-wide.
    We initiated a feasibility study to replace the Rayburn 
roof with a building integrated photovoltaic roofing system or 
a vegetative roof for decreased stormwater runoff and improved 
insulation. We are also preparing to install an E85 gasoline 
dispensing station.
    To ensure that our efforts save energy and taxpayer 
dollars, as well as identify new energy conservation 
opportunities, we are conducting energy audits on our 
facilities on a five-year rotating schedule.
    It is important to note that the largest single contributor 
to our energy reduction efforts is the Capitol Power Plant. It 
operates under the Title V permitting program established under 
EPA's 1990 Clean Air Act amendments, and that permit is 
administered through the District of Columbia's Department 
Health, Air Quality Division.
    The plant has a complex emissions monitoring system in 
place, and it is required to certify the emissions monitoring 
system quarterly, with a certification performed by an 
independent third-party testing firm on an annual basis.
    Madam Chair, we greatly appreciate this Subcommittee's 
support and the investment Congress has made in our facilities 
and infrastructure over the past several years as we continue 
to make the Capitol complex safer and more energy efficient. As 
these buildings age, they will require significant repairs, 
renovations, and upgrades, and this will require a significant 
investment.
    The AOC is committed to being good stewards of the Capitol 
complex. Our goal is to work with the Congress to create a 
clear plan by which we prioritize our projects and the future 
needs of the Capitol complex. With such a master plan in place, 
we can then begin reducing this backlog of deferred maintenance 
and capital renewal work that has been identified and validated 
through these independent condition assessments.
    Once again, thank you for this opportunity to discuss these 
issues with you today, and I would be happy to answer any 
questions you may have.
    Ms. Norton. Thank you very much, Mr. Ayers.
    Ms. Rouse.
    Ms. Rouse. Good morning. Madam Chairman, Members of the 
Subcommittee, I am pleased to be here today to update you on 
the progress we have made to stand up the Office of Visitor 
Services for the Capitol Visitor Center.
    We are working to ensure that the U.S. Capitol is welcoming 
and an educational environment that will inform, involve and 
inspire everyone who visits; tourists and residents alike. We 
predict that the Visitor Center will become an exciting new 
destination.
    The programs and events are designed to entertain and to 
inspire multi-generational audiences. The programming will 
reflect the important impact that the Constitution, Congress 
and more than 200 years of laws have made in the shaping of the 
fabric of daily life in the United States.
    Exciting experiences await our visitors: a moving 13-minute 
orientation film that will begin a Capitol tour, an exhibition 
that includes a well-curated selection of documents and 
artifacts, as well as a specially designed touchable model of 
the Capitol Dome that will allow visitors to have an intimate 
view of this iconic structure.
    The Capitol Visitor Center was designed to incorporate as 
many green features as possible. In fact, the Capitol grounds 
will be greener when our landscaping is completed this summer.
    In the six months since I arrived in Washington, I have 
been building upon the operational framework that was developed 
by the AOC, Congressional leadership and the CVC Oversight 
Committees.
    My first priority was to create a hiring plan and recruit a 
team of experienced professionals. We are holding a job fair 
this month to hire more than 50 visitor assistants who will be 
our first-line ambassadors to the visiting public.
    I am committed to hiring a diverse and professional staff, 
so I have directed our human resources offices to reach out to 
Members of Congressional caucuses, including the Congressional 
Black Caucus, the Congressional Asian Pacific American Caucus, 
Congressional Hispanic Caucus and Congressional Native American 
Caucus, to inform potential candidates of job opportunities 
with the Visitor Center.
    On another front, we are in the process of developing the 
necessary tools to assist the public in planning a trip to the 
Capitol, tools that will also help them learn more about 
Congress, the legislative process and the history of the 
Capitol Building itself.
    Our new Visitor Center web site will be the key to our 
comprehensive public education program to help people arrange a 
visit to the Capitol and to their Members' offices and to begin 
their study of how Congress works. Millions of visitors 
including local residents will visit the CVC in its first year 
of operation, and the web site will help manage expectations by 
preparing the public with clear information about the Visitor 
Center from how to get there to the amenities and educational 
opportunities that await them.
    We have been working with our internal local and regional 
partners on every aspect of the Visitor Center-related 
logistics including transportation to and from the Visitor 
Center. Specifically, we have been facilitating meetings 
between the U.S. Capitol Police and the District Department of 
Transportation to discuss transit options for the visitors. 
Visitors to the CVC will arrive at our doors using a range of 
transit modes from walking and biking to traveling with a 
commercial tours company.
    We want to make the Visitor Center as accessible as 
possible to everyone, so we will continue to work through 
transportation logistics in order to meet the needs of our 
residents, the Capitol Police and our tourist business 
community. We especially want to keep our Capitol Hill 
neighbors informed of our efforts at the Visitor Center as any 
changes in pedestrian or particular traffic will affect them.
    On another front, we have been working with our Oversight 
Committees on the Capitol Tour Action Plan to ensure a positive 
visitor experience. Included in this plan is the institution of 
a new program, the Congressional Historical Interpretive 
Training Program or CHIP. CHIP training is for Congressional 
staff to give tours to ensure that they have accurate 
information to conduct constituent tours of the Capitol 
Building and exhibits.
    We will also train staff in providing for the safety needs 
of the constituents if that becomes necessary. For example, if 
an emergency evacuation of the Capitol is required, they will 
be trained I how to lead their group to safety.
    Thank you again for this opportunity to update the 
Subcommittee on our activities. This concludes my statement. I 
will be pleased to answer any questions.
    Ms. Norton. Thank you very much, Ms. Rouse.
    Mr. Beard.
    Mr. Beard. Thank you, Madam Chairwoman.
    I appreciate the opportunity to be here on behalf of 
Speaker Pelosi's Green the Capitol Initiative. The initiative, 
which was approved in June of 2007, has the stated purpose of 
making the House of Representatives carbon neutral in its 
operations by December of 2008.
    We will offset the 91,000 metric tons of greenhouse gases 
the House generates by, first, purchasing only electric power 
from renewable sources, primarily wind energy, to meet our 
needs. This will reduce the House carbon footprint by 57,000 
metric tons.
    Second, we are working with the AOC to ensure that natural 
gas, not coal, will meet the heating and cooling needs of the 
House of Representatives from the Capitol Power Plant. This 
will reduce our carbon footprint by another 10,000 metric tons.
    Finally, the House purchased offset credits from the 
Chicago Climate Exchange for the remaining 24,000 metric tons 
of greenhouse gases to ensure carbon neutral operations by the 
deadline set out by the Speaker.
    The Speaker has also directed us to further reduce our 
carbon footprint by cutting energy consumption or reducing 
energy consumption in the House by 50 percent over the next 10 
years. As you heard from the Architect, the Acting Architect of 
the Capitol, the AOC has reduced its energy consumption by 6.5 
percent in 2006.
    In order to meet her directives, we have launched a number 
of important programs. First, the House now has a green food 
service operation and facilities. All of the House restaurants, 
cafeterias and catering facilities have taken steps to green 
their processes, install more energy-efficient equipment and 
use recycled materials for counters and food stations.
    More important, the food waste from all House facilities is 
now composted. An onsite food pulper reduces the weight of the 
waste from our food service operation by as much as 25 percent.
    We are sending the output from the pulper to the Department 
of Agriculture's Beltsville research station and a commercial 
compost facility in Crofton, Maryland. In February, for 
example, we diverted between 38 and 45 tons of waste from 
landfills and sent 11.3 tons to be composted.
    The House now sells only 100 percent post-consumer waste 
recycled paper. The House currently uses about 70 million 
sheets of paper a year. By selling only recycled paper, we will 
save significantly on energy and water use and reduce 
greenhouse gas emissions as outlined in my testimony.
    The House, through the AOC, is in the process of revamping 
its paper recycling program, and we are now picking up 
compostable waste from all offices.
    The Architect of the Capitol, as Stephen mentioned, has 
received approval for installation of new and improved 
electricity meters in all House office buildings, and this will 
improve our management of electricity.
    Seven thousand compact fluorescent light bulbs have already 
been installed in House offices, and we are working to replace 
the remaining incandescent bulbs with improved CFLs which have 
a payback of less than five months.
    Our computer services are in the process of being 
consolidated at fewer locations to diminish energy consumption. 
By changing operating procedures and installing new technology, 
we have set a goal of reducing our energy consumption at 
computer centers by 40 percent.
    All of the House's 84 vending machines have been replaced 
with energy-efficient machines.
    A bike-sharing program known as ``Wheels 4 Wellness'' will 
be launched in May for employees using House-owned bikes to 
reduce carbon emissions and also provide an exercise option for 
our employees.
    A car-sharing program contracted out to Zipcars is already 
in place, allowing Members and staff to rent hybrid cars on an 
hourly basis from the House parking garage.
    We have put in place other transportation improvements. 
First, employees taking public transportation will now use 
Smart Cards and Metro benefits will be automatically loaded up 
onto cards electronically each month, thus eliminating the need 
for a paper card and the use of the Department of 
Transportation to hand them out.
    The Metro benefits program will be centrally funded and 
administered starting in fiscal year 2009 instead of managed by 
each office, thus, we hope, increasing participation in the 
program and providing some additional assistance to Members by 
a higher MRA.
    Finally, we have requested $1.7 million to reimburse House 
commuters for parking at VRE, MARC and Metro lots.
    The House has purchased its first electric-powered truck 
for small package deliveries, and we are working with 
manufacturers to purchase hybrid diesel trucks for larger 
capacity needs.
    The Capitol Dome will be relit with energy-efficient 
lighting in the next six months. The conventional lights 
illuminating the outside of the structure are, in fact, prime 
examples of somewhat outdated and uneconomical technology.
    Chairwoman Norton, I want to thank you for providing us 
with this opportunity. We believe that the Green the Capitol 
Initiative has brought about some enormous changes in the way 
we do business in a short period of time.
    We are doing this in your District and would be happy to 
work with you and Mayor Fenty to put the lessons we have 
learned into the District of Columbia schools or work with 
other local institutions.
    Again, thank you.
    Ms. Norton. Thank you very much, Mr. Beard.
    Indeed, in this Subcommittee, we are going to be pursuing 
several hearings on greening Washington because the 
Subcommittee has jurisdiction over leasing and building of 
Federal buildings, and this is where the footprint of the 
Federal Government is with more than half the facilities 
located here. So it seems to me that what you have just said, 
linking what the District, which already has some very 
progressive legislation, has done would make a great deal of 
sense.
    Mr. Ayers, I would like to ask you about your own capital 
improvement program. As I understand it, essentially, that will 
simply be a list. There has been some interest on the Committee 
about how to address this backlog.
    You have a five-year capital improvement plan which could 
be the basis for a real capital program. Have you any ideas 
about how a capital program that might be legislated might 
work?
    Mr. Ayers. Yes, ma'am. Certainly I think that that would be 
helpful to alleviate the backlog, but I think it is important 
to look at the entire picture. I think there are three 
important elements. First, we have to eliminate the backlog. 
Secondly, looking forward, we have to prevent that backlog from 
recurring, which is an ongoing reinvestment in facilities that 
we really haven't made in my estimation. Then, thirdly, there 
are a variety of projects and needs from the Congress that are 
gathered in the Capitol Complex Master Plan that will 
ultimately need to be funded as well.
    So I think those three pieces, if they are addressed in 
some form of legislation authorizing them, that would be very 
helpful to that process.
    Ms. Norton. Well, are you proceeding now without such 
legislation? How do you prioritize?
    I agree with you that this long-term planning is large. 
Congress hasn't done that yet. I am very interested in 
proceeding along those lines. Meanwhile, you have been 
proceeding in some form or fashion. Give us some idea of what 
your priorities have been and how you have arrived at them.
    Mr. Ayers. Certainly. I think our priorities reflect the 
Congress' priorities, and that is the way it should be.
    We use three factors to prioritize projects, and that is, 
first, the importance of a project. We will evaluate every 
project that comes to us on a variety of pre-established 
criteria like energy conservation, fire and life-safety, 
security, economics, and historic preservation, among others, 
and we will give each project an independent score.
    We will then rank each project by its classification: 
deferred maintenance, capital renewal, capital improvement, or 
capital construction. Any project that is deferred maintenance 
is a higher priority than capital construction, meaning you 
take care of what you have before you build new.
    Then, lastly, as our independent consultants have reviewed 
all of our facilities and developed a condition assessment for 
each, each of those projects has been given an urgency 
classification: whether it needs to be done immediately, 
whether it is a high urgency, which means the next two to four 
years, or medium, or low.
    So we take all three of these factors then in sort of a 
composite rating guide, and ultimately, that will shake out a 
list from one to three hundred projects in priority order for 
us.
    Ms. Norton. Wow. I just think your answer is a virtual 
description of the need for authorization legislation so that 
you can proceed. You seem to have some notion of priorities 
that I think the Subcommittee will be very interested in 
examining as we contemplate such legislation.
    Mr. Beard, you indicated that the House had purchased its 
first electric-powered truck for small package deliveries and 
that you are working with manufacturers to purchase hybrid 
diesel trucks. How many vehicles do we own? Do we own a large 
stable of vehicles in the House of Representatives?
    Mr. Beard. No. Forty vehicles in a fleet split among the 
House officers. I think I have approximately 10 vehicles. The 
Clerk has a number, and then we have a number of security 
vehicles for the leadership.
    Ms. Norton. The Speaker has a vehicle. The people like that 
have vehicles.
    Mr. Beard. The leadership, yes.
    Ms. Norton. What is the turnover on those vehicles? How 
long do they last before they are over with?
    Mr. Beard. Well, the security vehicles are turned over a 
lot, on a lot faster basis, usually two to four years. The 
trucks that I was describing, which we use for hauling 
furniture and moving large objects as well as for computers and 
small supplies, we usually have an eight to ten-year life span 
for those trucks.
    Ms. Norton. Is there any reason why the House should ever 
purchase another vehicle except one that is alternatively 
fueled?
    If you had to turn over five vehicles today, would you 
automatically go to some form of alternative fuel vehicles or 
would you just continue to buy gas-powered SUVs and whatever it 
is you have been doing until now?
    Mr. Beard. I can't think of a reason why you wouldn't. I 
can't think of a reason. I mean the Speaker has made it 
eminently clear to everybody that works in the House of 
Representatives what her view is on the subject, and I am a 
little bit perplexed as to why we have some vehicles, have 
purchased or leased some vehicles.
    There is a provision in the Energy Bill.
    Ms. Norton. What about the Capitol Police vehicles?
    Mr. Beard. Capitol Police takes their direction through the 
Police Board, but I notice that they just did purchase an 
electric vehicle. But they have police cars, and you would have 
to ask the chief who I think will be testifying later.
    Ms. Norton. Not to worry.
    Mr. Beard. Not to worry.
    But I would say, Madam Chair, if I could, as you know, 
Members are authorized to lease vehicles and one of the 
provisions in the Energy Bill was that they be energy-efficient 
vehicles on leases in the future. Our office handles those 
leases, and so we are working through that process.
    Ms. Norton. Indeed, I did know that.
    In fact, what you described that you have done already is 
impressive, but I may say, sir, that this Committee will be 
looking to see whether or not your office ever purchases 
another gas vehicle. It seems to me it is a small fleet. It is 
one of the ways in which we ought to be setting the example, 
and I will be speaking with the Park Police later.
    I would like to know, Ms. Rouse, you are going to have a 
whole new operation there. I looked at the cafeteria that will 
be huge. How are you tied into the recycling efforts of the 
Capitol? How is it tied together?
    Do you have a separate recycling effort? Do you do 
recycling? How will you manage the amount of recyclables that 
will come out, not to mention trash, garbage and the rest that 
will be generated by a huge, new facility?
    Ms. Rouse. Part of the recycling for the restaurant is 
through Restaurant Associates. Built into their contract is 
recycling of food products, as well as using utensils which are 
recyclable. That is a key component of what we are looking at.
    We are, of course, part of the AOC's operation. So the 
recycling efforts that are in place and will continue to be in 
place will fall under the Architect's facilities maintenance 
people who will be working there. So that is a key component of 
what we are doing.
    We will not be allowing food to be taken out of the 
restaurant area. It will be confined to that area. That is part 
of our ongoing plan.
    Ms. Norton. Thank you very, Ms. Rouse.
    I am going to move to the Ranking Member or to the Ranking 
Member of the Full Committee, whichever you prefer.
    Mr. Mica. If it is okay, I thank both the Chairman and our 
Ranking Member to let me go. I have to scoot, but this is an 
important hearing. Again, I congratulate you on holding it and 
so far, I think, helping establish a very solid pattern and 
blueprint from which we can move on getting a better handle on 
our planning, our priorities for the Capitol complex.
    I cited in the figures that were given to me, $3.2 billion 
over I believe a period of 5 years just to do sort of the fix-
it work. Mr. Ayers, is that correct?
    And, I was told that did not include the Cannon Building.
    [Information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Ayers. That is correct.
    Mr. Mica. In the Cannon Building, we are now probably 
talking about $500 million, $400 million to $500 million for 
renovation of that building. Are there any other whoppers out 
there as far as the big bucks?
    I know that the Capitol Building itself does need. The dome 
has several hundred million dollars worth of work, I think. Is 
that within the framework of the 3.2?
    I am trying to get the whoppers sort of outside the 3.2. 
Could you give us any in as to those kinds of costs?
    Mr. Ayers. Certainly. The Cannon Building would be one of 
them, and that is four to five hundred million dollars, we 
estimate at this point.
    If you recall, Congressman Mica, that several years ago we 
began the renovation of the Dome of the Capitol Building and 
did the interstitial space between the inner and outer dome. If 
you recall, we used a sort of parachute inside the rotunda. 
That was only phase one of two phases. We have to come back and 
do the second phase, which is the exterior of the dome, and 
that is certainly one of the whoppers.
    Mr. Mica. A couple hundred million?
    Mr. Ayers. No, probably less than a hundred million but 
certainly a significant project that is not in the number.
    The Capitol Power Plant, collectively, the Congress decided 
we want to install a cogeneration facility there. That is 
probably $250 million to $300 million that is not in that ``get 
well'' plan.
    Mr. Mica. Okay. Well, again, the staff have given me a 
figure in the multi-billion dollar area of what it would take. 
Do you recall what the total figure was that was given to me 
outside the $3.2 billion long-term capital requirements?
    He is estimating a three or four billion over the next 
twenty years. Would that sound about right?
    Mr. Ayers. That sounds low to me.
    Mr. Mica. I thought I saw an $11 billion figure.
    Mr. Ayers. Eleven or twelve billion over twenty-plus years.
    Mr. Mica. Okay, that is what I thought. Eleven or twelve 
billion, okay. I am just trying to clarify what the immediate 
picture is to fix it and then the long term.
    I do have concerns, too, about going back to the Capitol 
Building, the historic Capitol Building, and even the House 
chamber. The House chamber is in some serious need of some 
life, healthy, safety renovations. I've toured, myself, 
underneath the floors and seen some of the wiring and things 
that need. We have been very fortunate because it has sort of 
been a patchwork of communications and electrical additions 
that would give a fire marshal a great deal of heartburn in the 
private sector.
    You have mentioned that in 2006 there were some calculated 
savings of 6 percent. Was that energy costs?
    You had cited a 6 percent, 2006 figure in your testimony. 
Do you recall what that was?
    Mr. Ayers. That is energy reduction per square foot.
    Mr. Mica. Okay. Now do you have 2007?
    Mr. Ayers. Not yet. We are required to achieve a 4 percent 
reduction in 2007. We report those numbers in April. So, later 
this month we will be reporting that, but I do know that we are 
right at that 4 percent.
    Mr. Mica. So there has been a decrease from 2006 to 2007?
    Mr. Ayers. Correct.
    Mr. Mica. Okay. That is what I had heard.
    One of the big expenses might be and maybe one of the big 
savings areas might be utility conversion. I remember, I guess 
it would be BCVC, Before Capitol Visitor Center, was the talk 
about redoing some of the utilities, and cogeneration was one 
of the considerations. Right now, we are using coal, natural 
gas and also some fuel oil?
    Mr. Ayers. That is correct.
    Mr. Mica. How long are the contracts on the coal?
    Mr. Ayers. I believe we do an annual contract on coal 
purchases. I don't believe we have a long-term contract.
    Mr. Mica. It is not long term?
    Mr. Ayers. I don't believe so. It is long term on natural 
gas which I think runs through 2009.
    Mr. Mica. Have there been any proposals or any requests for 
proposals for cogeneration based on the most fuel-efficient, 
green energy production, power facilities improvements and with 
a payoff, because I am sure there would be a wide variety of 
return based on what you use.
    Have you had requests out for that or have you seen 
proposals or estimates back?
    Mr. Ayers. We have done one initial study on simply the 
feasibility of installing, the physical feasibility of 
installing a cogeneration facility at the Capitol Power Plant. 
That study validated that it is possible. It is in the 
magnitude of 250 to 300 million dollars.
    We have not gone to the level of determining----
    Mr. Mica. Payback.
    Mr. Ayers.--payback and what kind of fuel mix would be the 
best scenario there.
    Mr. Mica. I think that would be something that you could 
put a request for proposals out if we are really interested in 
the greening. It is probably most of the negative footprint 
that is put out from the Capitol, sans some of the legislation 
that has recently been passed. At least you smiled on that one.
    But if you wanted to really see how we could green the 
place, the best example for energy generation with the least 
negative effect on the environment, and I don't think it costs 
a lot.
    Some years ago, I did have an energy company look at it 
when we were looking at building the Visitor Center. They told 
me the payback could be so great that they could have actually 
paid for the Visitor Center just if they could keep the same 
payment and change out the energy production system. I don't 
know that that would be the case today.
    Also, one of the big overruns I know on the Visitor Center 
was the repair and upgrades on utility, both accessing the 
Capitol Visitor Center Complex. Wasn't that the case, huge 
amounts of extra money gone into that?
    Some of those systems were old or service connectors were 
old and were not part of the original plan of the Visitor 
Center expansion. Is that correct?
    Mr. Ayers. I am not familiar with that, Congressman Mica. I 
know that we certainly had to construct a new tunnel from the 
Visitor Center to connect to our existing steam and chilled 
water distribution.
    Mr. Mica. Well, that is one of the ones that I meant.
    Mr. Ayers. That was always in the project.
    Mr. Mica. It was. It depends what point in the project you 
were looking at, but that got pretty costly as I recall, and we 
had the collapse of a couple of the other utilities or finding 
that they were inadequate to support the relocation.
    Well, finally, Ms. Rouse, you are working on the Visitor 
Center. Hopefully, we will open it in November, hopefully after 
the election. We have enough things to be issues without the 
Visitor Center being primary.
    A date has not been set. Who will make the final decision? 
Is there a commission that will be bicameral and bipartisan?
    Ms. Rouse. I believe Congress will set the date. We have 
been working with the leadership and the Oversight Committees 
on that. We are discussing very actively the test and adjust 
periods and the things that we will need to do to make sure 
that the operation is running effectively when the CVC is 
handed off to us from the Architect's Office.
    We are very conscious of the many things that will be going 
on towards the end of the year. We want to make sure that our 
opening to the public is a comprehensive one.
    Mr. Mica. Well, finally, I had suggested that based on 
historical precedent, each of the additions of the Capitol have 
had a cornerstone laid by a President back to George 
Washington. I felt that, well, we don't have a cornerstone per 
se.
    I suggested a center stone, and it would be fitting to have 
the President participate and have a ceremony that included a 
center stone because the Visitor Center is unique. It is the 
only addition like, well, that transcends both the HC and the 
SC turf requirements. It does belong to all the people, and it 
was an extension extended for the people as opposed to for the 
convenience of the Representatives.
    Thank you for your service, too.
    Ms. Rouse. Thank you.
    Ms. Norton. Thank you, Mr. Mica.
    Mr. Ayers, I think you testified that you exceeded the 
goals. Who else testified?
    There was testimony about exceeding goals, climate change 
goals or environmental goals. I know you did, Mr. Ayers and Mr. 
Beard.
    I have just been with the Speaker on this climate change 
CODEL to India. It was remarkable and here we are, of course, 
wanting to see what the Indians do. We find that they have done 
a great deal. For example, the Minister of External Affairs 
said they will never exceed. They will never exceed the 
average, the world average of CO2 emissions.
    That is just in doing what they can do with people who 80 
percent of the population earn less than $2 a day. A third of 
the population earn less than $1 a day. We were not exactly in 
a position to preach to the Indians and nor did we try.
    But, in light of your testimony about exceeding goals, Mr. 
Ayers, I believe had goals of 2 percent. He got up to 6 
percent. In light of the urgency of climate change, would you 
not recommend that higher goals be set for each of you?
    Mr. Ayers. Certainly the goals I was referring to are the 
goals that the Congress established in the Energy Act 
legislation of 2005. Those goals were 2 percent per year. The 
first year I mentioned was 2 percent. We achieved 6.5. The 
second year is 4 percent. We are on track to achieve that 4 
percent.
    Ms. Norton. Is the 6 percent at the end?
    I am sorry. In other words, this 6 percent was only what 
you were supposed to achieve at the end of a certain number of 
years. Is that what you are saying?
    Mr. Ayers. No, ma'am. All Federal agencies were required to 
have a 2 percent reduction the first year. We achieved a 6.5 
percent reduction the first year.
    Ms. Norton. I see what you are saying. You know this is a 
legislative branch. My own sense is that, particularly with the 
initiative that the Speaker has taken, if the legislative 
branch leads, we have a better chance, it seems to me, of 
getting the attention of the executive agencies.
    I am very impressed that you have exceed your goal. I have 
to ask you, what was the investment necessary in order to reach 
the climate change or the energy conservation goals?
    Obviously, one of the things we have had to make people 
understand is that, as with everything else, you have to invest 
in order to get a return. I am interested in the payback and 
how soon the payback comes so that we can either make the case 
or improve in what we do. What can you tell me on that, Mr. 
Ayers or any of the rest of you?
    Mr. Ayers. I don't have the specific numbers but certainly 
investments to date are several million dollars, three, four, 
five, six million dollars to achieve those results. We have 
talked about certainly looking forward. Those investments will 
have to significantly increase to continue to drive some energy 
reduction.
    Mr. Beard. Well, if I could interject, Madam Chair, or just 
add to that, the legislation passed by the Congress requires a 
2 percent per year, but the Speaker as the Chair of the House 
Office Building Commission has directed that we reach an energy 
savings of 5 percent per year for the next 10 years in House 
office buildings. Now Mr. Ayers is responsible for a lot more 
than the House.
    I would point out that this 5 percent is pretty aggressive 
for 10 years. That is a 50 percent reduction. It is aggressive, 
but it certainly is nowhere near as aggressive as the private 
sector is doing. Wal-Mart, for example, in each of its new 
stores, requires a 25 percent reduction.
    Ms. Norton. What are they doing that we are not doing? That 
is amazing.
    You see what the bottom line will do to people who have to 
pay for the energy out of their own pocket. They set goals 
that, in fact, get significant reductions. This 2 percent, 3 
percent--here we are talking to the Indians--is impressive only 
as we exceed them.
    What is Wal-Mart doing? Why do they set such a high goal 
and we have these teeny, teeny, eeny goals?
    Mr. Beard. Because it pays off. It goes directly to the 
bottom line. That is why they do it.
    Ms. Norton. So then you would recommend we set higher 
goals?
    Mr. Beard. I certainly would, but 5 percent is a size we 
can get at the present time per year. Over a 10-year period of 
time, that is a 50 percent reduction in our energy.
    Ms. Norton. Mr. Ayers and Mr. Beard, when I ask Mr. Ayers 
what kind of investment, how much you have to invest to get, 
this is critical information. No matter how you get it, you 
have to get us that information. At some point, somebody is 
going to ask for a GAO report, and it is going to say, well, 
how much did they spend in order to save how much?
    We are just beginning this. We need to know. This 
Subcommittee needs to know how do we measure whether or not 
this, in fact, saves anything? I don't know.
    It is going to be very important for you and for Mr. Beard 
to find a way. It is not rocket science. That is why Wal-Mart 
is doing it. They know exactly how much they have invested in 
order to get the payback.
    Go visit them. Do something. But the next time we have a 
hearing, we will need to have some cost-benefit analysis. How 
much did we invest? What is the payback this year? What are we 
getting?
    A lot of this is, in fact, being measured now. So I would 
very much press for measurements to begin now because if you 
only begin it later on, it is harder to, in fact, do cause and 
effect. It could not be more critical.
    Mr. Beard. Could I respond to that?
    Ms. Norton. Yes, please.
    Mr. Beard. As the testimony points out, we, my office 
invested $100,000 in the purchase of compact fluorescent light 
bulbs. We have replaced 7,000 of the 30,000 light bulbs in the 
House of Representatives. The total cost of that was $100,000, 
and we know that the energy savings attributable to that 
investment. It will pay back in five months. So, in six months, 
we are going to be making money.
    Ms. Norton. I want you to bring me the bill. I want you to 
bring us the bill.
    Mr. Beard. I will be more than happy to bring you the bill, 
but I would also point out to you that the Inspector General 
has been following along behind us and has calculated what it 
will cost. The energy savings attributable for the investment 
we made in CFL light bulbs will be $1.2 million over the next 
10 years. That is $120,000 a year from the investment that we 
have made.
    Ms. Norton. Mr. Beard, you are talking here to a true 
believer.
    Mr. Beard. Yes, you are talking to a true believer, too.
    Ms. Norton. But I want to make sure, and it looks like you 
are being tracked. You are small enough, for that matter, the 
Capitol itself is a small enough enterprise to do it.
    Because you are at the threshold of this and because it 
seems so impressive, I am very anxious to have the documented 
evidence of exactly what you are saying. Everyone says it will 
produce. Well, let's see if it does.
    I believe it will. Don't prove us wrong, but let's see the 
evidence.
    Mr. Beard. Yes, we do have the evidence, and we would be 
more than happy to provide that.
    As I pointed out in my testimony, we used to send somewhere 
between 37 and 45 tons of material to the landfills in the 
area. We now are sending only 11 tons to the landfills, and 
that is in the form of compost which will then be coming back 
here as a product.
    Ms. Norton. Yes, that is very impressive. What do you do 
with the compost? Do you sell it? What do you do?
    Mr. Beard. It is being used at the Department of 
Agriculture for their research. At their research station, they 
use it on the facility.
    Food compost waste is not high quality enough. You have to 
add carbon to it. As a result, they need to add sawdust and 
other kinds of materials to make it a much richer product.
    Ms. Norton. Mr. Graves.
    Mr. Graves. Thank you, Madam Chair.
    What you are talking about here is making investments for 
actually two things. One, I can see making an investment to 
reduce the costs in the future or for energy efficiency, and 
then there is making investments in green initiatives. Cost for 
a 50 percent reduction, $600 million is a pretty hefty cost, 
and I have to ask you about some of these things.
    How much did you spend on carbon offsets this year?
    Mr. Beard. Eighty-nine thousand dollars.
    Mr. Graves. How much are you going to spend next year on 
carbon offsets?
    Mr. Beard. Don't know.
    Mr. Graves. Is that making us more efficient because, quite 
frankly, I think it is a bunch of crap? If you purchase 
somebody else's efficiency, you are not doing anything to make 
the Capitol more efficient when you do that. What has that got 
to do with saving the taxpayers' money and making the Capitol 
more efficient?
    Mr. Beard. A carbon offset is simply a license to pollute. 
What we have done is prevent that pollution from taking place 
in the future by purchasing that offset credit and retiring it. 
That means it can't be used to add carbon to the atmosphere.
    Mr. Graves. How does that make us more efficient? How is 
that going to save the taxpayers' money?
    Mr. Beard. The directive we are under is to operate the 
Capitol in a carbon neutral manner. Now the question is how do 
we get there? We need to reduce our carbon footprint and, to do 
that, we are making investments in electricity, produced from 
renewable sources.
    Mr. Graves. Well, let me ask you about that.
    Mr. Beard. Purchasing more natural gas.
    Mr. Graves. Let me ask you about that. The House is going 
to be 100 percent wind energy by when, whatever? Are you doing 
that now or you are purchasing all wind energy right now, is 
that right, to produce electricity?
    Mr. Beard. The Appropriations Committee provided the funds 
to do that in last year's Appropriations Bill, and we are 
working with the Architect to get the contract signed by Pepco.
    Mr. Graves. Well, how does that make the House more 
efficient when it comes to saving the taxpayers' money on 
energy? What if the wind doesn't blow?
    Mr. Beard. We are part of a regional network, and that 
purchase will reduce the carbon emissions from the operations 
of the House of Representatives.
    Mr. Graves. But how does that save the taxpayer money by 
making us more efficient when you shut off and you say we are 
no longer going to use coal or use natural gas, we are just 
going to use wind? How does that save the taxpayers' money in 
the long run by energy savings, by savings? I just don't see 
that happening.
    What is more, and this goes to Mr. Ayers. It kind of ties 
into it too. How does it save the taxpayers' money when we 
retrofit a system instead of just waiting for the capital 
improvement project that is going to come eventually down the 
line?
    When you are changing out components and changing out 
systems now, but you know you are going to have to completely 
redo the system or a building in the future, how does that save 
the taxpayer money and make us more energy efficient?
    It seems to me like we are spending money that we are going 
to turn back around and spend again eventually. Wouldn't you 
rather do it when the project comes up in its timetable?
    Mr. Ayers. That would certainly be the best and most cost-
effective time to do it.
    Mr. Graves. If we are talking about saving the taxpayer 
money and being more efficient, a lot of these things aren't 
going to save the taxpayer money. I can see investing in the 
future to have more cost savings through energy efficiency.
    But cutting off certain sources of electricity and saying 
that we are 100 percent wind power, which I think is a bunch of 
crap too because it all goes into the grid and you can't tell 
me that all the energy that we are getting for electricity is 
coming from wind power. If you are getting that from your 
consortium or whatever in, say, West Virginia or Pennsylvania, 
and the wind isn't blowing or they are not producing enough 
electricity, then what are you getting that wind power from? 
Where are you purchasing it from?
    How far away is it coming from? What is that costing the 
taxpayers?
    So there are two different things. If you are talking about 
spending money, again, to make us more efficient and save the 
taxpayers' money, that is one thing. But when you are talking 
about spending money to purchase carbon credits and stuff like 
that, that isn't doing anything to save the taxpayers' money in 
the long run. That is just spending money, so you can say 
something that really feels good.
    Ms. Norton. Well, I think Mr. Graves' questions are fair 
questions, indicating what I have said to Mr. Beard, show me 
the evidence, because I do think that not only Members but the 
American people still have rather low consciousness, frankly, 
on whether or not this should be done, whether it is worth the 
investment. It is a lot of money from their point of view. They 
need to be convinced.
    I have seen data that I find convincing, but it does seem 
to me as we go along, yes, these questions have to be taken 
very seriously and answered.
    Mr. Graves' question about you are patching something and 
you may take down the whole thing really has to do with the 
appropriations system. We don't do that. We have a building 
fund that keeps us from having to do that.
    One of the things, if we do legislation as I hope we do, we 
are going to have to figure out is how to guarantee that there 
is enough money to go ahead and do a project. I see, Mr. Beard 
and Mr. Ayers. I see real competition here between the need to 
comply with long-term planning and plan to overhaul something 
entirely or take it out and the need to maintain things when 
almost things need a separate maintenance budget from your 
budget to really renew, rehab and reconstruct.
    I don't know what we will need, but it does seem to me that 
it calls for thinking outside the box if we are serious about 
doing something. Pay-go climate, nobody is going to look like 
we are spending so much more for the Capitol than we are 
spending for the Veterans Administration or other pressing 
needs. And so, I am very interested in getting together with 
all three of you and others you would recommend to think 
through how to keep these parts of the process from competing 
with one another and making it look like maybe we are wasting 
money.
    Ms. Rouse, you said you would be hiring a diverse 
workforce, et cetera. How much hiring has been done? How many 
people are to be hired?
    Ms. Rouse. There are about 252 people to be hired.
    Ms. Norton. How many?
    Ms. Rouse. Two hundred fifty-two. We have probably hired in 
the neighborhood of about 20 as of the middle of April. The 
large job fair will be held on April 7th and 8th.
    Ms. Norton. Where is that going to be held?
    Ms. Rouse. It is going to be at a hotel near the Ford 
Building.
    Ms. Norton. Downtown Washington.
    Ms. Rouse. That is on the 7th and 8th, next Monday and 
Tuesday. Two hundred and eighty-five people qualified for those 
interviews.
    Ms. Norton. Excuse me. Say that. You have already held it?
    Ms. Rouse. No. It is next Monday and Tuesday, the 7th and 
8th.
    Ms. Norton. Two hundred and eighty-five?
    Ms. Rouse. 285 people qualified_almost 400 applied for the 
visitor assistants.
    Ms. Norton. How did you advertise for people to apply?
    Ms. Rouse. Well, we actually did some unique things. We did 
ads in the Washington Post. We also took out some ads in the 
Metro Express which attracted a different audience, and other 
web sites. We also distributed information through the various 
Congressional caucuses. So we were able to get a rather diverse 
pool of people to apply, and our partners around the Capitol 
are going to help us through the interview process.
    Ms. Norton. What are the job categories?
    Ms. Rouse. The category we are talking about here is 
visitor assistants. These are people who will be greeting 
people. They may be sitting at terminals. They may be outside. 
So it is an interesting position.
    We will be hiring, moving forward, supervisors within the 
visitor assistance program. I have coming on board, web site 
people and an attorney who started today. So it is a whole 
spectrum of the professional world.
    Essentially, there will be 205 people who will be engaging 
the public directly.
    Ms. Norton. So there is 205 people who will be.
    Ms. Rouse. Guides as well as your visitor assistants.
    Ms. Norton. Then how many total?
    Ms. Rouse. Two hundred and fifty-two. If you add in the 
building maintenance under the Capitol Superintendent's 
supervision, then superintendents, there will be about 318 
individuals supporting the CVC. Of course, we are supported in 
general by the Capitol Police.
    Ms. Norton. Would all three of you, within 30 days, submit 
to the Committee the breakdown by job category based on the 
general categories reported to the Equal Employment Opportunity 
Commission, the same categories, within 30 days? We would like 
to receive that from each of you.
    Could I ask about this very controversial Capitol Power 
Plant? It is the bane, if I may say so, of my personal 
existence since I have come here. This is the greatest polluter 
in the District of Columbia which has taken great pains to rid 
ourselves of such power plants. We are aware of the political 
implications, and the Speaker is trying to get around them in 
the only way she can.
    How much is the power plant in use since I believe you 
testified that a great deal of what is being done is being done 
through natural gas and the rest, Mr. Ayers?
    How much of that power plant, where I have personally seen 
from my constituents the flakes on their houses and on their 
porches, not recently but when I first came to Congress. So I 
am trying to find out how much of the power plant still 
remains, how much of it is in use and how much of it is 
necessary still, what is it used for?
    Mr. Ayers. Madam Chair, the Capitol Power Plant provides 
steam and chilled water, steam for heating purposes and chilled 
water for cooling purposes, to all of the facilities on Capitol 
Hill, as well as several that are off the Hill. That is its 
primary purpose. It operates 24 hours a day, 7 days a week, 52 
weeks a year.
    We are nearing the completion of an expansion of the west 
refrigeration plant, and that portion of the plant will provide 
additional cooling water capacity that was primarily needed for 
the new Capitol Visitor Center but also to meet the increasing 
cooling demands of the Capitol complex as a whole.
    Ms. Norton. That is going to come from the Capitol Power 
Plant too?
    Mr. Ayers. Yes, ma'am.
    Ms. Norton. Does everything we do have to come from that? I 
mean do we have any alternative where it can come from some 
place else?
    Mr. Ayers. I don't know that there is an alternative that 
is in the District.
    Certainly there is an alternative that we could move from a 
district or a central utility plant to an individual building-
by-building utility system. We have taken a look at that. It is 
probably $2 billion to $2.5 billion dollars to move to that 
kind of system.
    Ms. Norton. Well, nobody is going to do that when we all 
had to do was change the way in which the power plant is. Okay, 
I am bitching here. I will just wait for a way around this.
    Look, I am interested. Mr. Graves spoke about wind. All of 
us romanticize when it comes to wind. I am interested in how 
does it work if you purchase your electricity from Pepco. How 
do you get wind power? Is there significant wind-generated 
energy in this place?
    Mr. Ayers. You can buy a variety of types of electricity 
from Pepco, and wind is one of them.
    Ms. Norton. How much wind do we buy?
    Mr. Ayers. Today, we purchase 3 percent renewable energy. 
Some of that may be wind. Some of it may be other sources.
    Ms. Norton. Could I ask about Zipcar? Who knows about 
Zipcar? I just found out about it when we were on our trip to 
India?
    Mr. Beard, would you explain Zipcar, please?
    Mr. Beard. Yes. We went to Zipcar which is a private 
company, and we went to Flexcar. There were two companies at 
the time. We got proposals from them to store their vehicles 
here in the Rayburn garage. Since we signed them up, the two 
companies have merged. So it is just Zipcar.
    There are no costs for Members or staff to participate in 
the program. If you want to use a car, you simply go online and 
reserve the car and go down and pick it up and drive it on an 
hourly basis.
    Ms. Norton. You get the car where, Mr. Beard?
    Mr. Beard. Rayburn garage.
    Ms. Norton. What is the frequency of use, Mr. Beard?
    Mr. Beard. I would have to get the statistics. The greatest 
use of Zipcars has been by people, Members particularly, who 
signed up here and then use it in their districts, but Zipcar 
has been satisfied enough with it that we still have two cars 
here.
    Ms. Norton. How are they powered?
    Mr. Beard. These are Prius, Toyota Prius or hybrids.
    Ms. Norton. Could you get us those statistics?
    Mr. Beard. Sure.
    Ms. Norton. Is it well known?
    I have a hybrid. Maybe I wouldn't have thought to look. Is 
it well known in the House among staff and Members that you can 
use a Zipcar rather than your big old whatever to get around?
    Mr. Beard. Well, it seems to be fairly well known. We have 
made multiple efforts to try to advertise the program with 
Zipcars.
    Ms. Norton. Could I ask Ms. Rouse, well, between you and 
Mr. Ayers? Mr. Ayers spoke about the treadmill on which we are 
operating. The Ranking Member referred to it as well, and that 
has to do with you have to maintain things while you are trying 
to move forward, sometimes to retrofit altogether.
    How will we maintain this CVC? How can you assure me that 
this CVC is going to look just like it looks because we are 
engaged, if we are, in a maintenance effort of the kind we have 
never used in any other part of the Capitol of the United 
States or, given your needs, is it necessary for you to move 
resources to more urgent needs since it is a brand spanking new 
facility? That is your dilemma.
    Mr. Ayers. I can certainly assure you that the execution of 
that project and its transformation to a fully functional 
visitor services operation is our top priority, and we are 
simply not going to drop the ball. It will be a Class A 
facility as it should be, and we will ensure it is maintained.
    Ms. Norton. It is going to be costly?
    My point is that, given these needs which are pretty 
awesome, Mr. Ayers, I am trying to find out if significant 
dollars are going to be needed to maintain this facility as we 
move forward. You heard the Ranking Member ask about Cannon, 
the oldest building.
    I am trying to figure out as we contemplate legislation, 
how in the world do you figure out your priorities?
    A new building, you wouldn't want a scratch on it, and yet 
you have buildings that have been scratched up for decades. Is 
maintaining a new facility like this, at this stage of the 
game, fairly low cost? Does it become high cost only at some 
later stage? Educate me.
    Mr. Ayers. That is certainly true. A new building does not 
require the kind of maintenance that a 200-year-old Capitol 
Building does. You are absolutely right.
    The dollars in our appropriations are segregated. Our 
maintenance dollars are generally in a different category than 
our capital improvement dollars. Generally speaking, they are 
not going to compete with one another unless we really get 
upside down in a particular building.
    Ms. Norton. Well, thank you. That is very reassuring.
    The Chairman of the Full Committee, I think, would surely, 
if he were here, ask about the status of the photovoltaic study 
for the Rayburn roof. I will go further and say about the other 
photovoltaic undertakings that we believe may be underway in 
order to save energy and to move us toward a greener Capitol. 
Could you give us anything further on that?
    Mr. Ayers. Yes, Madam Chair. We have partnered with the 
Department of Energy to look at the Rayburn roof as well as the 
Hart roof, as was required by the legislation. In addition, we 
have looked at all of the other buildings on the Capitol 
complex to determine their feasibility for the building 
integrated photovoltaic roof systems. We focused, of course, on 
Rayburn and Hart as they have roof replacements that are 
necessary in the very near future.
    We have done that. We have received their report, and I 
believe we have shared that with the Subcommittee as well. 
Generally speaking, the report indicates that photovoltaics are 
not cost effective in this application.
    Ms. Norton. Meaning? That is important to know. Meaning?
    Mr. Ayers. The payback period is typically longer than the 
life span of the products themselves. So, for example, the 
Rayburn payback was well over 50 years.
    Ms. Norton. Why? That is the kind of evidence we need.
    Mr. Ayers. Typically, you wouldn't want to do that with a 
payback greater than 20 years.
    Ms. Norton. By that time, there will probably be a whole 
new kind of photovoltaic with a better payback.
    Mr. Beard, that is the kind of information we need since 
you know we are going off of what seems to make better sense.
    Is there any substitute, like green roofs, that should be 
used at this time, that would be energy efficient, would save 
us from runoff addition and the like?
    Mr. Ayers. We also took a careful look at green roofs both 
on Rayburn and on the Hart Buildings. The structural analysis 
on the Rayburn Building simply said it is not feasible to 
install a green roof on the Rayburn Building. It was feasible 
on the Hart Building and portions of the Dirksen Building, but 
again the payback period far exceeded the potential life span.
    Ms. Norton. I don't understand why it is not feasible to 
put some plants and some grass up on a roof. So tell me why it 
is not feasible.
    Mr. Ayers. Well, typically, it is up to a foot of soil and 
other product on top of your existing roof. So the weight of 
one of those far exceeds the weight of the existing roof. So 
the structural members simply weren't designed to carry that 
amount of weight.
    Ms. Norton. Thank you very much, very important feedback.
    I want to thank all three of you for very, very helpful 
testimony. Thank you very much. Until next time.
    Mr. Ayers. Thank you.
    Ms. Norton. Could we call the next panel?
    The U.S. Capitol Chief of Police, Phillip Morse and Emeka 
Moneme, Director of the District of Columbia Department of 
Transportation--panel two, thank you very much for your 
patience.
    You may proceed first, Chief Morse. Thank you.

  TESTIMONY OF CHIEF PHILLIP MORSE, U.S. CAPITOL POLICE; AND 
  EMEKA MONEME, DIRECTOR, DISTRICT OF COLUMBIA DEPARTMENT OF 
                         TRANSPORTATION

    Chief Morse. Good morning, Madam Chair and Chairman 
Oberstar. I would like to thank you and Members of the 
Committee for inviting me here today to discuss the United 
States Capitol Police Department's involvement in the AOC's 
Capitol Complex master plan as well as our ongoing planning for 
the security requirements for the Capitol Visitor Center and 
the department's efforts to support the AOC's energy 
conservation program.
    I would like to begin by acknowledging the relationship we 
enjoy between the United States Capitol Police and the AOC. 
While faced with many facilities and security issues, we have 
formed a collaborative relationship intent on finding solutions 
for our common goal of providing a Capitol Complex that 
provides for the operational and security needs of the 
legislative branch.
    Various projects included in the master plan have an effect 
on our security systems and operations. For example, we are 
currently working with the AOC to provide security for the 
ongoing tunnel project as well as completion of the Capitol 
Visitor Center.
    Related to ongoing facility requirements directly facing 
the department, we worked with the AOC and established the 
facility's master plan in 1999 that forecasted the needs of the 
department into the year 2010. This initial plan, along with 
subsequent updates, resulted in establishing short and medium-
term leases designed to bridge the gap until permanent 
solutions could be funded and constructed.
    Currently, the department is seeking a permanent solution 
for an offsite delivery center, vehicle maintenance facility, 
property management storage facility, command and 
communications complex to include the radio and data, and a 
long-term location consolidation for all occupants of the 
Fairchild and current headquarters buildings. The department is 
working with the AOC on long-term solutions in these issues.
    In the near term, the department is working closely with 
the AOC on the final steps to prepare for the completion of the 
CVC in 2008. This new facility will efficiently process high 
volumes of guests and visitors and bring them into a safe, 
controlled, monitored environment as quickly as possible while 
maintaining the highest level of security and protection.
    We are continuing discussions with the AOC and the 
District's Department of Transportation to look at bus routes 
on the Capitol Complex as well as the most efficient methods 
for transporting visitors while maintaining our operational 
security plans for the complex. Should the concept of 
Circulator buses be approved to move tourists around the 
Capitol Complex as well as address increased pedestrian flow, 
we believe that additional personnel and infrastructure 
resources may be necessary.
    In an effort to support the Legislative Branch's energy 
conservation initiative, the department serves as a member of 
the Legislative Branch, Chief Administrative Officer's 
Council's Green Buildings/Processes Working Group addressing 
this matter. Additionally, the department is working with the 
AOC on an energy conservation evaluation of all Capitol Police 
facilities.
    In addition, the department is incorporating hybrid and E85 
vehicles into the life cycle replacement of our fleet where 
feasible. Further, we have a fleet of bicycles which are 
utilized to provide campus coverage and mobility for 
operational activities.
    The department remains committed to continuing the highest 
level of security and services provided to the Congress and the 
visitors of the Capitol Complex. With the continued support of 
Congress, our partners at the AOC and the department, we will 
be able to provide for the sworn workforce and operational 
mechanisms needed to meet the security requirements for the 
complex.
    Once again, I just want to thank you for this opportunity 
to discuss these issues with you today, and I would also like 
to thank you for your continued support of the United States 
Capitol Police. At this time, I would be happy to answer any 
questions that you might have.
    Ms. Norton. Thank you very much, Mr. Morse.
    Mr. Moneme.
    Mr. Moneme. Let me be the first to say good afternoon, 
Chairwoman Norton and Chairman Oberstar.
    My name is Emeka Moneme. I am the Director of the District 
of Columbia Department of Transportation or DDOT.
    Thank you for this opportunity to share the District's plan 
to offer enhanced transit service to the Capitol Complex and to 
outline other measures designed to ensure traffic flow and 
enhance pedestrian safety in the area.
    In June of last year, I testified before this Subcommittee 
and gave an overview of a proposed Union Station-Capitol 
Visitor Center-Navy Yard Circulator bus route. This route would 
allow visitors to our Nation's Capital to utilize Union Station 
as an initial staging area before venturing to other sites 
within the complex and adjacent neighborhoods.
    I am pleased to report that this route is currently being 
piloted using existing WMATA buses. The District has also 
procured several new buses that are scheduled to arrive as late 
as January, 2009, that will replace the existing Metrobus 
vehicles.
    The Architect of the Capitol has indicated that 
approximately three million people will visit the new CVC in 
fiscal year 2009, this in addition to the one million Library 
of Congress visitors per year. Our hope is that the new Union 
Station-CVC-Navy Yard route will offer a reliable, frequent, 
low cost, tourist-friendly transit service to individuals and 
families visiting the CVC and other National Mall area 
attractions.
    In anticipation of this massive influx of people of people 
in and around the new CVC, the District is preparing a set of 
pedestrian safety enhancements to implement. We plan to share 
these ideas with the U.S. Capitol Police for their input, and 
these recommendations will include measures such as the 
following: the deployment of traffic control officers at key 
intersections, the retiming of traffic signals in the immediate 
vicinity of the CVC, the re-striping enhancement of crosswalks 
and the installation of weight signage and other appropriate 
signage.
    We will monitor conditions after the opening of the CVC and 
adjust our tactics as necessary.
    We have estimated the fiscal year 2009 operating costs for 
the proposed D.C. Circulator route at approximately $3.2 
million. The District is planning to make a contribution of 
local funds. However, it is critical that the Federal 
Government assist us with the fiscal year 2009 operating costs 
of this new route.
    In the absence of a significant Federal contribution, other 
District transit improvements will suffer and the planned route 
must be scaled back.
    I would like to take this opportunity to thank you, 
Congresswoman Norton, for your leadership to ensure that the 
transportation needs of the CVC are adequately addressed both 
in terms of transit and minimizing the impacts of the center on 
the surrounding community. This has certainly been the case in 
regards to your sponsorship of our request for funding in the 
fiscal year 2009 Federal budget.
    At the hearing last summer, I stated the following: 
Continuous communication and coordination with the Architect of 
the capitol and U.S. Capitol Police would be essential to 
ensure the smooth movement of people around the Capitol and, 
two, securing operational and capital funding is challenging 
and additional funding is needed to implement the planned 
transit services to accommodate CVC visitors.
    I am pleased to report that DDOT, the U.S. Capitol Police 
and the Architect of the Capitol have maintained continuous 
communication and have worked very closely together over the 
past several months.
    Secondly, funding does continue to be a challenge. The 
District has already made an investment in new buses and will 
allocate additional local resources for the fiscal year 2009 
operational costs. However, it is certainly our view that we do 
need a commitment from our Federal partners to support, in 
fiscal year 2009, the opening of the new CVC and to make it a 
safe and enjoyable experience for all.
    I thank you again for the opportunity to share the city's 
plans with you. We will continue to partner with this 
Subcommittee, the Architect of the Capitol, the U.S. Capitol 
Police and others in anticipation of the opening of the CVC 
this fall.
    Thank you for your time, and I welcome any questions.
    Ms. Norton. Thank you both, and may I thank Chief Morse for 
the way in which the Capitol Police have worked closely with 
the District of Columbia as they have assured all along and as 
we now have heard testimony. This is a Federal city, and 
working closely together is absolutely essential, particularly 
on security matters and particularly transportation matters.
    Gentlemen, without knowing, because who can know, we 
anticipate that whatever is the number, and it is in the 
millions of people who come to the Capitol every year, will be 
substantially increased when they hear there is a new 
convention center. Of course, Mr. Moneme knows that we like 
them spending another few hours or days in the District.
    What have you done? Before we get to how they get there, do 
you anticipate significantly more visitors coming to the 
Capitol Complex, whether they are coming to the Capitol, to 
Rayburn or to CVC, than came in the last fiscal year?
    Chief Morse. Well, I think that as far as visitors are 
concerned to the Capitol, I have been a police officer here for 
about 23 years. It is always a consistent flow of visitors, and 
they have always come no matter rain, sleet or snow or what the 
threat environment is. So I fully anticipate that the numbers 
that we have seen over the past years will continue to come to 
the Capitol.
    Ms. Norton. Well, I am sure we are going to have as many. 
What I am trying to find out is what only my gut tells me, and 
I am trying to find out if you have a more scientific way of 
calculating whether or not there will be a significant increase 
or whether the flow will be since I was a kid and since my 
father was a kid.
    We know that they continue to come. They even continue to 
come when the crime spikes in the District. They come.
    I am trying to find out whether there will be an onslaught 
of new visitors who, for example, I will give you exactly what 
I am talking about. Half the people who come here are school 
children. Well, if your school children have been to the 
Capitol before, the teacher might say, well, this time we are 
going to spend more of our time at the butterfly exhibit, which 
we now have to make sure it doesn't charge them $6 to get in, 
or we are going to go the Spy Museum this time.
    But this year, it does seem to me that any teacher worth 
her degree will say, well, I am taking the kids to the CVC and 
then to the Spy Museum and the rest.
    Is there any way? I am not asking you to do the impossible, 
but sometimes people are able to calculate.
    For example, Mr. Moneme may have a better notion of this 
because our Department of Tourism or whatever you call them may 
keep better records. I am trying to know whether there is any 
way to prepare for what is in my gut and what may be in the 
data, a significant increase in visitors coming just because 
there is a CVC, assuming we open it, by the way, at the end of 
the year or the beginning of next year or whatever.
    Mr. Moneme. I will attempt to respond to that. I know that 
we have the WCTC, the Washington Convention Tourism Commission.
    Ms. Norton. I can't hear you.
    Mr. Moneme. We do have the Washington Convention Tourism 
Commission which does do some estimations of visitors to the 
city, and we have heard from them that we are anticipating an 
increase for the next several years, not only due to the CVC 
but other new attractions opening in the city.
    I think perhaps, as the Chief and I were discussing in the 
panel before, they may have already started to get some 
commitments or reservations being made for visitors in the 
future. We may be able to rely on them to get us some more 
specifics.
    Ms. Norton. Could you ask the Convention Tourism Bureau to 
submit, within 30 days to the Subcommittee, their calculations 
of what increases are likely and over what period of time?
    For example, you might imagine that the greatest increase 
will come. I know not of which I speak. I know not of what I am 
talking about. But you might imagine that the greatest influx 
would come in the warmer weather. You might imagine that the 
greater influx would come when we first opened.
    I am just trying to make sure that we are not caught 
unaware just because we don't know. There are ways to calculate 
these things as the District of Columbia does all the time 
because it wants these tourists here. That calculation hasn't 
been done. I would request that it be done.
    Now transportation is a major concern, and it is so 
entwined with security, you can't delink the two. We are going 
to hear testimony that calls into question our transportation 
plan.
    There may be some vested interest in this, but that is 
exactly how we get things sorted out. There is a vested 
interest in everything. You all have a vested interest. So when 
I heard there were concerns, I asked for the American Bus 
Association, with whom we have worked very well and very 
consistently, if they would offer testimony.
    Essentially, they argue that if you take these visitors, 
that they come to Union Station. Then they transfer to the 
Circulator bus and are transported to the CVC. In that, we are 
getting ourselves from the frying pan into the fire because 
then you have a whole, huge buildup at our hub. That is what 
Union Station is.
    There isn't enough space to accommodate these large--I hate 
them because they are too large--buses. Somebody decided they 
were going to buy great, long buses that I think they got on 
sale and that is why they bought them. But, in any case, Union 
Station won't accommodate them, and there aren't enough smaller 
Circulator buses to accommodate them.
    In other words, it is going to be even worse having to go 
there. I am sure the tourists are going to just love it. You go 
over there. Then you come here. It is like calling somebody up, 
and I switch you to this one, and then you will finally get 
there.
    What would be your response to that criticism of the 
transportation plan?
    Mr. Moneme. Well, let me. I will speak to the buses that 
you mentioned before. I think in my testimony, I mentioned that 
we have just ordered additional buses that will be here in 
January, 2009.
    Ms. Norton. Tell me about those buses.
    Mr. Moneme. The good news about those buses, they are the 
smaller vehicles. They are the 30-foot Circulator vehicles that 
will be able to maneuver in tighter spaces.
    Ms. Norton. How many of those, Mr. Moneme?
    Mr. Moneme. We are ordering 14 in that order. They should 
be here no later than January.
    Ms. Norton. Who is paying for those, Mr. Moneme?
    Mr. Moneme. The city is.
    Ms. Norton. Thank you very much. That is a real 
contribution. That is a real contribution that the Federal 
Government ought to be helping you with.
    But go ahead.
    Mr. Moneme. We thought it was the right investment to make.
    Ms. Norton. Are those hybrids or alternative vehicles?
    Mr. Moneme. They are clean diesel. It is a modern diesel 
which is a lot cleaner than what you stereotypically think of 
diesel.
    Low floor, easy to inspect, which is one of the security 
concerns that our partners at the U.S. Capitol Police have.
    One of the reasons why we proposed the Union Station as the 
dropoff point or the collection point----
    Ms. Norton. When you say Union Station, pardon me if I 
interrupt you as you speak, as I am trying to understand this. 
Where do you go in Union Station?
    First of all, are we talking also about the things like the 
big ones or are we only talking about these smaller ones?
    Mr. Moneme. In the interim right now, we are doing the 
pilot with the WMATA buses, which I believe those are 30-foot 
buses.
    Ms. Norton. Are we talking about the Circulator things? You 
know those. Do they go to Union Station along with these 
smaller vehicles that you are purchasing and already have, I 
guess?
    Mr. Moneme. The existing Circulator buses, the longer ones, 
do serve the Union Station. They take folks down to Georgetown, 
the K Street route. This proposed route with the 30-foot buses 
will also be there as well.
    Ms. Norton. Okay. It is only the 30-foot buses that will go 
to Union Station?
    Mr. Moneme. No. Both will be at Union Station.
    Ms. Norton. Okay. Where do they go?
    Mr. Moneme. Typically, they go in front on Columbus Circle, 
right there in front of Union Station. But we are in the 
process of doing reconstruction there now, collecting people at 
the rear of Union Station and then coming up front and taking 
folks down K Street.
    Ms. Norton. The rear of Union Station, do you mean you go 
up H Street or do you mean you somehow go through Massachusetts 
Avenue and go to the rear?
    Mr. Moneme. Yes, Massachusetts into the parking deck, you 
go by the SEC and then behind Union Station. It is the parking 
garage between H and the actual Union Station.
    Ms. Norton. But you enter it how?
    Mr. Moneme. Through the main, right off Massachusetts 
Avenue.
    Ms. Norton. Oh. How many are we talking? What do you do 
with the long Circulator buses?
    Mr. Moneme. Currently, excuse me.
    Ms. Norton. We are talking about they go to the rear, 
including those Circulator buses.
    Mr. Moneme. They do go in the rear, right.
    Ms. Norton. There is room for them back there with all 
those other buses back there?
    Mr. Moneme. There is. There is space back there.
    Ms. Norton. Now how do the commercial buses, how do they 
get there?
    Mr. Moneme. They come the same way. They can either access 
the garage from Massachusetts or I believe they can actually 
access it from H Street as well.
    Ms. Norton. It sounds very, I don't know. This is a 
facility with which I am familiar, and I am a hard time 
envisioning the logistics you describe. I would like us all to 
get together.
    Mr. Moneme. Right now, we are in a bit of transition 
because there is construction that is about to commence at the 
front of Union Station at Columbus Circle and, for that reason, 
we relocated the Circulator buses to the rear of the facility 
to allow us to do the construction.
    Ms. Norton. Plus the other buses? Plus the commercial buses 
that will bring the visitors in the first place there?
    Mr. Moneme. That is correct. So that will be the current 
situation, frankly, and it is temporary until the construction 
is complete.
    Ms. Norton. Well, I am having a hard time envisioning all 
those buses around the circle as well. I understand that you 
have been dealt this deck.
    Chief Morse. I think that perhaps if we do meet with you 
and give you a totality of information involved around this 
because there are many other things than just Union Station, as 
far as the marketing, getting people to the CVC itself and 
perhaps the previous panel, Ms. Rouse, would be able to answer 
these questions better as far as the marketing. But we have 
three Metro systems that surround the Capitol Complex with 
Capitol South and Federal South.
    Ms. Norton. Are you working with the bus transportation 
people who bring our visitors here in the first place so that 
maybe they go by Metro?
    Chief Morse. Yes. All information to travelers and 
commercial buses and the public conveyances, we have 
communicated to them. What we are doing now is we are refining 
some current bus routes, public conveyance to make it easier 
for people to traverse from Union Station, as one example, to 
the eastern corridor as well as to the stadium.
    Ms. Norton. Could I just ask a question? Why couldn't 
people get on the smaller Circulator buses or even the larger 
ones at some point without going all the way to Union Station?
    Chief Morse. They can, actually, and Emeka can tell you 
more about that, but there are other Circulator systems and 
routes that serve the western visitor area.
    Ms. Norton. I am talking about for the commercial vehicles 
that bring the people to the city in the first place. Why do 
these people have to be brought to Union Station which is going 
to have some of them angry in the first place and then brought 
to the Capitol? I am the first to say you are not bringing 
those buses through our streets. So there are certain things 
that are off limits.
    But I am trying to wonder whether we are not creating 
another pileup point at one of the most congested parts of the 
District already, which is that Massachusetts Avenue 
thoroughfare. I hate to go there. I avoid it because of the 
circles and the rest of it. I live on Capitol Hill, so I know 
how bad that can get.
    Mr. Moneme. Well, that was really one of the reasons for 
advocating for a Circulator service to serve the CVC because 
you can pick it up at other locations that tourists are going 
to be.
    Ms. Norton. Well, how about doing that instead of bringing 
them in. These bus companies want to come up here with their 
folks. I can understand.
    I can understand, and I am not trying to suggest that Union 
Station should be off limits, but we are creating a transfer 
point for people who are anxiously trying to get to the 
Capitol. It is very good what you are doing because you are 
trying to get them here rather than using these great, long 
buses that the Capitol, for security reasons, is not going to 
let come close to this place.
    But what I am missing is why? What magic? Why is there is 
magic in Union Station?
    Mr. Moneme. I would argue that that magic for Union 
Station, Madam Chair, is that a number of modes can be served 
at Union Station. You can take Metro rail. You can come off the 
Metro rail and walk onto the Circulator bus. If you can take 
Amtrak from the northeast corridor, you can hop off.
    Ms. Norton. We are trying to deal with people already in 
the city on tour buses at the moment. I understand these other 
folks. God bless them. The ones I am most concerned about are 
the ones who come on these tour buses from out of town.
    If you are coming some other way, then the transfer point 
makes greater sense. You come from that other way. You got to 
Union Station. We will take you to the Capitol.
    But, as I indicated, half the people who come here are 
school children. Most of them come through these buses, one way 
or the other. Many of them, of course, do not. I am trying to 
find where do they start from. Can we pick them up at some 
point other than Union Station? I suppose that is my bottom 
line question on this one.
    Chief Morse. One thing that you had asked us to do, there 
were several questions especially for the commercial buses 
coming to the city from out of town. One was: Where do we park? 
One of the solutions is Union Station where there is parking 
spaces. There are other alternative locations that they are 
working on to direct commercial buses to park after they drop 
off passengers.
    The other solution is connecting the various Circulator 
systems at the other visiting sites in order for buses to do 
one dropoff and have people circulated through the various 
attractions.
    So several things are working here. One is a Circulator 
system that provides from a hub at Union Station, which 
provides commercial buses, parking. It provides amenities that 
are not available or have not been available and parking that 
has not been available in the past. The Department of 
Transportation is also working on other locations where buses 
can park.
    So what we have provided at your direction is a Circulator 
bus system, existing Circulator bus systems with other 
attractions that all interconnect with the Capitol Visitor 
Center as well as providing commercial buses a place to park at 
the rear of Union Station, as well as giving direction and 
other locations to park whenever they drop off at other scenic 
attractions. I think the Department of Transportation's effort 
in that respect, at your direction, has been very positive.
    Then the marketing aspect of this is very critical as well 
from the standpoint of Ms. Rouse's area of responsibility, that 
they provide information not only to the public but also to the 
commercial and the various transportation systems about timing 
and locations of dropoffs and pickups at the CVC in and of 
itself.
    So I think we have done a pretty good job of, at your 
direction, Madam Chair, to answer those questions that were 
concerning the bus industry.
    Ms. Norton. Well, I think you have. I think you have.
    By the way, Chief Morse, Mr. Moneme will tell you that 
marketing about not taking public transportation worked pretty 
well for the ballpark at the games this week. Every other word 
that came out of our mouths was at your own peril, you don't 
want to. Somehow people did it and trains were. What was 
crowded were the trains. So marketing can be done.
    How is paying for the 50 spaces?
    I mean you say there are 50 spaces or staff tells me there 
are 50 spaces that are dedicated at Union Station? Who is 
paying for those spaces? The bus companies? Who?
    Mr. Moneme. Yes, they are paying rent, rent for a fee to 
park.
    Ms. Norton. All right. I have just a couple more questions, 
but I am pleased that the Chairman has been able to break loose 
from his meetings and he may have questions on this to these 
witnesses.
    Mr. Oberstar. Thank you for your presentation, Chief Morse 
and Mr. Moneme. You have given a great deal of thought to how 
to manage the influx of visitors to the Capitol with the new 
Visitor Center.
    Things have come a long way from the days when I worked up 
here on Capitol Hill in the House post office in the 1950 as a 
graduate student. Most of the Capitol Police at that time were 
also graduate students. There are very few.
    We all had friends and family coming to Washington to visit 
the Nation's Capital and see the Capitol facility itself. Often 
at 8:00, 9:00, 10:00 at night, we would walk through the 
Capitol with family and the police, our graduate school or law 
school colleagues, would say: Oh, come on. Can we hep you?
    Now, if you try to come as a Member that late at night with 
the House not in session, you are treated like a suspect, a 
terrorist. You can't get through. The doors are locked. It is 
most public unfriendly because of security, not because you 
want to make it miserable, but the whole environment has been 
transformed because of the threat to public security.
    How many officers are there on the Capitol Police Force 
today?
    Chief Morse. Our authorized strength is about 1,700 sworn 
and there are about 400 civilian workforce.
    Mr. Oberstar. And, are you at strength?
    Chief Morse. We are.
    Mr. Oberstar. You are authorized at 1,700, but what is the 
actual strength?
    Chief Morse. The actual strength, I would have to get you 
the numbers, but we are probably in the 1,600 range.
    Mr. Oberstar. You also, in your testimony, Chief, said that 
you established a unified incident command system, but you 
didn't unified with whom. Is that with the District of Columbia 
Police, with the Maryland and Virginia jurisdictions as well?
    Chief Morse. Well, we have an incident command structure 
within the Capitol Police and a command center which is the 
nerve center of that.
    We also have the interoperability, if you will, from a 
command standpoint to operate with the metropolitan police as 
well as other law enforcement agencies in the District of 
Columbia and the metropolitan area through either direct access 
to them or liaison to their police departments throughout.
    Mr. Oberstar. Do you also connect with the Homeland 
Security Department?
    Chief Morse. Yes, we have representatives and liaisons with 
various Federal law enforcement agencies throughout the region.
    Mr. Oberstar. As in the incident when airspace was violated 
and the alarm went out, the Capitol Police were coordinating 
with Secret Service, with Homeland Security, with the D.C. 
Metropolitan Police Force. Is that essentially it?
    Chief Morse. Right, there are obviously other Federal law 
enforcement agencies that are affected by an air threat. We all 
collaboratively together before, during and after those events 
to perfect the response to that.
    Mr. Oberstar. You have fully interoperable communication 
systems?
    Chief Morse. We do not have interoperable radio systems.
    Mr. Oberstar. Oh, you do not?
    Chief Morse. We do not.
    Mr. Oberstar. That is unusual. This is the seat of 
September 11, one of the three sites of destructions. Why not?
    Chief Morse. We have about a 25-year-old radio system that 
last year in the spring, during budget hearings, I made a 
priority to look at that radio system and look for an 
interoperable and encrypted radio system that would serve the 
United States Capitol Police and the Congress.
    Mr. Oberstar. Did the Appropriations Committee provide the 
funding for you to do this?
    Chief Morse. The Oversight Committees have been very, very 
helpful, and Appropriations has given us direction, and we have 
followed that direction and will be reporting to them very 
shortly on our finding regarding the interoperable radio 
system.
    Mr. Oberstar. What did they direct you to do?
    You said the Appropriations Committee gave you direction. 
What was that?
    Chief Morse. The direction was to do an analysis of and a 
design structure to find out what the costing would be and the 
extent of work that would need to be accomplished in order to 
get an interoperable radio system for the United States Capitol 
Police.
    Mr. Oberstar. What has been the effect of not having an 
interoperable communication system? What has it meant for the 
Capitol Police and for the other jurisdictions?
    Chief Morse. Well, in respect to having an old generation 
radio system, there are obviously maintenance problems that you 
have with that and reliability. Regarding the interoperability, 
as we see area jurisdictions around us go interoperable, 
knowing that in a catastrophic situation or a crisis situation 
that all thee agencies must be able to work together.
    Mr. Oberstar. So you can't use your radio communication. 
You have to use land lines.
    Chief Morse. We would have to use land lines, cell phones, 
BlackBerrys and/or direction communication at one of our 
command posts.
    Mr. Oberstar. You have good company. There are volunteer 
fire departments in remote areas of my Congressional district 
that have the same problem in Superior National Forest and the 
Chippewa National Forest and Voyageurs National Park where we 
have vast tracks of land. One county is 7,000 square miles of 
itself.
    But the radio systems don't work in those remote areas, and 
they can't get funding from FEMA to upgrade their systems. FEMA 
then said, well, we want you to haven an 800 megahertz 
communication network, and it doesn't work in the trees of the 
northern forest.
    It seems to me I want our volunteer fire departments to 
have the best equipment and be able to talk to each other, talk 
to the county sheriff's department and to communicate among the 
several counties that need to back each other up. We are 
talking vast expanses of land.
    But here we are in the Nation's Capital, and you would not 
be able instantly to communicate with your brother police 
departments is astonishing to me.
    Chief Morse. Well, as you know, Congressman, as Chief for 
15-16 months now, I identified this pretty quickly as a 
necessity for operations. Like I said, reporting this to our 
committees of oversight, and their support got us pretty far 
down the road on this. We are ready to report out to them on 
our findings and looking for their support in this area, this 
very critical area.
    Mr. Oberstar. Do the other jurisdictions support the 
concept of an interoperable communication system?
    Chief Morse. Yes, there are.
    Mr. Oberstar. What would it cost to do that?
    Chief Morse. The costing is something that we are 
completing, and we will be forwarding to the Oversight 
Committees.
    We are a very unique police department. We are talking 
about a Capitol Visitor Center which is subterranean, which is 
unique, where our officers will be working below ground and 
have been working in tunnel systems, et cetera, where radio 
communication is very, very important. So we are very unique in 
that respect, and certainly that is probably the most different 
in systems from a municipality.
    But as we look around the metropolitan area, as we look at 
the metropolitan police and just most recently in Prince 
Georges County where they are establishing an interoperable 
radio system for, I believe, 27 municipalities within that 
county, we see that interoperability is critical.
    The 9/11 Commission Report talked about interoperability 
with the aircraft over at the Pentagon, it was clearly seen 
that interoperability was critical to handling that situation. 
Those types of events are really the threat environment that we 
work in and, as a police department, I saw it necessary that we 
prepare ourselves accordingly for that type of incident.
    Mr. Oberstar. When do you anticipate that you will be able 
to give a response to the Appropriations Committee on the cost 
and the type and number of equipment to be administered?
    Chief Morse. We will be presenting our presentation to the 
Capitol Police Board this week or next week at a routine board 
meeting, and then we will be prepared at that point to go 
forward to the Oversight Committees with the findings.
    Mr. Oberstar. Will that be a classified document?
    Chief Morse. I don't believe it will be classified. It will 
certainly be law enforcement sensitive.
    Mr. Oberstar. We would like to have a copy available to the 
Committee for our review and our consideration, given our 
responsibilities in this area as well, in whatever form, 
whatever restricted that you deem necessary, given the 
sensitivity of the situation. Certainly the Subcommittee Chair, 
the Ranking Member of the Subcommittee and the Ranking Member 
of the Full Committee and I would be interested in having that 
information.
    Chief Morse. Yes, sir.
    Mr. Oberstar. On the proposal for visitation to the new 
Capitol Visitor Center, it is one thing to propose a grand 
Visitor Center and a grand scheme. It is quite something else 
to get people to and from it.
    The planning for a Visitor Center began well before 
September 11th. Events have overtaken that scheme.
    I really have questions about the proposal, not questions 
but concerns about the proposal to shuttle buses over to Union 
Station and offload people from those buses onto a Circulator 
system, send them up to the Visitor Center, and then shuttle 
them back to Union Station.
    I think that is going to result in a great discouragement 
of travel. I wonder if you have given consideration to other 
options. One thing, for example, offloading visitors onto the 
shuttle. Are they going to have to pay for that shuttle to the 
Visitor Center?
    Mr. Moneme. The proposal is that there would be, just like 
the rest of the Circulator route for the city, a $1 charge for 
the shuttle. I do want to add, though, that the shuttle.
    Mr. Oberstar. One charge? I didn't quite understand what 
you said. A charge?
    Mr. Moneme. It is a $1 fare for the shuttle.
    Mr. Oberstar. A $1 fare for passengers.
    Mr. Moneme. Yes, for the Circulator, to ride the 
Circulator, but I would add.
    Mr. Oberstar. Round trip, $1?
    Mr. Moneme. It is an all day. Is it an all day pass?
    Per trip. It is per trip.
    It is not the only way to get to the Capitol Visitor 
Center. We want to make it clear it is not the only way to 
actually get to the CVC. You can choose to walk, ride your 
bicycle or other means, but that would be the fastest, most 
direct route is to take that Circulator, the proposed 
Circulator vehicle.
    Mr. Oberstar. The testimony that comes from the American 
Bus Association indicates that they estimate 1,000 buses a day. 
I imagine that is peak tourism season. That is an awful lot at 
55 passengers a bus. I would assume they are pretty well loaded 
with visitors, at least what I see. I see those buses 
converging on the Capitol.
    Why couldn't you have, as they suggest, screening of those 
buses to secure them and then let the bus drop people off at 
the Visitor Center entrance and move them smartly off to 
another location?
    Chief Morse. Those were options that were discussed prior 
to the options that are being looked at now. Those drive costs 
of manpower. They drive costs of equipment and resources in 
order to do an adequate screening. The location to do this is 
minimum. There are traffic congestion issues.
    Those are the considerations that were made by the 
taskforce of people who are involved in the decision-making 
process for the moving of people to the CVC.
    Mr. Oberstar. It would seem to me that you could have a 
screening of a bus well before it arrives on the Capitol 
Complex, check it for bombs and you know who these bus 
companies are. They are pretty standard. I can just, off the 
top of my head, think of at least six names that I see 
regularly. I won't name them here. I don't want to get in the 
business of advertising.
    Year after year after year, it is the same bus companies 
who are bringing people to the Capitol. You should know who 
their chief officers are and know who their drivers are.
    You can certify the drivers. You could screen the bus in 
some way, and then meter them into the Visitor Center dropoff, 
what time it takes, a few minutes to drop people off and shoo 
the buses on.
    Why, in your mind, is that a security issue?
    Chief Morse. It is not a security issue once a bus is 
screened and secured at all. I mean once we do this daily with 
our commercial conveyance, Metro transit, Circulator system, 
Maryland Transportation, Virginia because we didn't impact 
commercial conveyance.
    But it becomes very problematic with regard to traffic and 
where you do that, and the logistics of facilitating that are 
very difficult. But, with being said, it takes manpower to do 
that and equipment to do that, and it becomes a funding issue 
as well.
    But, as far as the security issue is concerned, once a 
vehicle is rendered safe, then certainly we are satisfied that 
it can traverse the grounds. It is just the number of buses 
that we are talking about, the limited space to do this type of 
screening, the manpower involved and the funding involved.
    There seemed to be other solutions that were more 
economically feasible and also really participated in the other 
visiting sites within the District of Columbia because the 
buses don't just come to the Capitol. The visitors don't just 
come to the Capitol. They go to so many other attractions in 
the city.
    What the Department of Transportation has offered is a 
means in which visitors are not just limited to one attraction. 
Now they can come to the District of Columbia. They have a 
place to park. They will be directed to other locations to 
park. They have amenities and shelter. They have a means of 
transportation to and from, and they really interact with the 
other attractions here in the city.
    So I think, overall, it is a really good plan and it is 
connecting the dots between all the locations in the city that 
are attractions.
    Mr. Oberstar. In that scenario then, do you envision the 
Circulator taking visitors after they have seen the Capitol, 
load them back on the Circulator and go to the Lincoln 
Memorial, the Washington Monument, to other locations? Is that 
what they would be doing?
    Mr. Moneme. The currently operating Circulator does serve a 
lot of those locations. The route that we are discussing right 
here actually serves or goes down to the Navy Yard, near the 
baseball stadium, also over by the waterfront area and then the 
L'Enfant Federal City area.
    So the Circulator was developed as a system, a broader 
system to really tie together what the Federal City offers to 
tourists as well as the city, the District of Columbia. It 
gives people the opportunity to not only just come and see the 
monuments but able to see other parts of the city including 
downtown, the Washington Monument, the Lincoln Memorial and on 
and on.
    So it is really a part. This is just one tactic in a 
broader strategy of moving people around and getting them to 
see more than just one or two buildings.
    Chief Morse. The other one point I wanted to make, and this 
was a concern of our community and I meet with the ANC 
commissioners, Mr. David Garrison specifically, to address 
their concerns pretty routine. With the multiple sites and 
attractions, we do have buses that are now traversing 
throughout the city.
    With giving them a hub and a central location and providing 
them with parking and providing them with connectivity with 
other monuments, we lessen the amount of movement of these 
buses which translates into environmental issues and traffic 
issues and certainly being in our neighborhoods. So I think 
this plan also addresses that as well, the concern of our 
neighbors, the movement of buses throughout the city, parking 
issues, traffic issues and environmental issues.
    So I think it is a sound proposal and one that we support, 
not only from that perspective but from a security perspective.
    Mr. Moneme. Mr. Chairman, if I could.
    Mr. Oberstar. Yes.
    Mr. Moneme. I just wanted to clarify one point. You 
mentioned the $1 charge. That is a per trip charge, but for $3 
you have an all day pass and you can ride the system anywhere 
throughout the city that it runs for $3 for the day.
    Mr. Oberstar. Well, I think this bears further scrutiny, 
Madam Chair, and I think we will need to give this further 
thought as the plan moves forward. I won't belabor the issue 
further. It is enlightening to have these thoughts but also 
some concern.
    Thank you.
    Ms. Norton. Mr. Chairman, I think you have brought up 
important points, and I think your answers have been important, 
too. I think this discussion, this exchange shows the dilemma, 
and I see the advantages. I certainly see the advantages.
    We may be too Capitol Center-oriented. That is one of the 
reasons I am going to ask you both to come see me to make me 
understand just a little more because I see the dilemma. I see 
your competing considerations.
    I do want you to consider before you come see me and come 
prepared to talk about this. Tour buses come to the Botanic 
Gardens, don't they, right now? Now, of course, if you are 
handicapped you can get a way up. Otherwise, you walk the way 
up, and most people do.
    One begins to wonder whether or not we ought to, instead of 
providing lots of great big buses going to Union Station, 
whether or not smaller non-gas powered vehicles like golf carts 
or whatever, more readily available to simply bring people up 
the hill might be a better way than this transfer point.
    People are used to coming to the Botanic Gardens. They 
don't complain.
    I congratulate the way you all put something over them. 
They know it is the Capitol. You have them wait down at the 
bottom. Then there is another waiting point. Then there is 
another point that gets you in. One would have to figure out 
how to get them to the convention center. That is not 
difficult.
    All I am doing is trying to think of some alternatives 
since we already allow these tour buses to come pretty close to 
the Capitol. As I understand it, that has been working. I don't 
want to spend more time either, but I think the Chairman has 
opened important points.
    I do want to ask you this. Chief Morse, with respect to we 
are now going to open streets. This is one advantage, it seems 
to me. We would be opening, is it First Street, to these buses 
to come through First Street which is now got us closed, 
looking like we are scared of our shadow.
    These buses at least could come through First Street 
between Constitution and I guess it is Massachusetts Avenue, 
transporting people from Union Station. Is that not correct?
    Chief Morse. The bus route that is proposed is 
Massachusetts to Louisiana to First Street, N.W. to 
Constitution, to First Street, N.E. and then over to 
Independence and then a continuation of the route east on 
Independence Avenue to 8th Street, S.E.
    Ms. Norton. You mean to say that these buses would not come 
down First Street or not?
    Chief Morse. Okay. At this point, that is not the route.
    Ms. Norton. Foul. That is one of the things I thought was 
definitely in the plan. The tour buses can't do this. You close 
it off to the world but with these buses, these Circulator 
buses, the Circulator buses would be able to come down First 
Street.
    Now you have them touring all around Robin Hood's barn even 
with these approved vehicles. Why? What happened?
    You all told me that that was one of the advantages and now 
you are telling me that that is not to happen?
    Chief Morse. There are several things that have changed 
with respect to First Street, N.E. in that the parking is now 
in the 100 block, yes, the 100 block of First Street, N.E. on 
both sides of the street. It didn't used to be there and the 
proposed two-way traffic of buses.
    Ms. Norton. Are you joking? This is one of the widest 
streets in the District of Columbia. Our buses go down streets 
a whole lot narrower than this. Well, this is an excuse? Sure, 
I have seen the parking. It makes sense, plenty of room to go 
both ways with Circulator buses, particularly the smaller ones 
but even the bigger ones.
    Mr. Moneme. Madam Chair, if I could.
    Ms. Norton. You are now really hitting one of my real 
principles.
    You shouldn't have closed it in the first place.
    Mr. Oberstar. Right.
    Ms. Norton. It was one of those knee-jerk things. Even 
though, Chief Morse, I want you to come and see me about this, 
there is technology even for buses, regular Metro buses that 
assures that those buses could go to secure places.
    Now you are telling me that the most secure transportation 
can't go down C Street despite a promise made directly to me 
that that would be one of the advantages of using the 
Circulator system.
    Now you are telling me, sorry, they have to park on both 
places as if I did not know what First Street looks like. Who 
made that decision?
    Mr. Moneme. Madam Chair, if I could, this is definitely one 
of the points that is still on the table for negotiation when 
something in the District obviously wants to happen, to be able 
to use First Street for that purpose. It has one of the issues 
we have been going back and forth with the Capitol Police.
    Ms. Norton. Tell me: Are you all serious to go back down 
Louisiana and go all around again and then what? Come up 
Independence?
    Go down Louisiana, then we come where?
    Mr. Moneme. Constitution. They would follow the route of 
the existing N22 route that Metro currently runs. That is the 
fallback, but that is an open point that we have been 
discussing.
    Ms. Norton. I don't know who made this decision, but 
whoever are the people who were making the decision to close 
First Street in the first place seem to be back into the act, 
and we are just not going to have it.
    First of all, First Street ought to be open. There is 
technology that we discussed even at the time it was closed. 
Nobody wanted to hear about it.
    We are 5 years after 9/11. We are not going to take closing 
down this city and can't even open it up to get people to the 
Capitol Visitor Center because we are afraid of what? What? 
People on both sides of the street have been allowed to park?
    This is very disappointing for me to hear. I am pleased 
that you say it is on the table. I am telling you, gentlemen, 
these things are coming through First Street if I have anything 
to do with it or else the whole notion of creating another 
whole pattern of traffic, making Constitution Avenue more 
difficult to get up, makes no sense unless you can show me that 
there are security reasons for it.
    Certainly the reasons about parking on both sides, which I 
have personally witnessed, do not make the case.
    As to the cost, I accept, Mr. Moneme, that there would be a 
cost. If you want to go around the city, that would be $3, $1 
if you just want to come to the Capitol. That is terrible.
    Mr. Moneme, that is very visitor unfriendly. You should 
never agree to that. That is very anti-District of Columbia, to 
say now if you really want to get to the Capitol from here, 
here is a buck you have to put down. This is awful.
    Even as I criticize it, don't think I have not looked at 
your competing, really quite impossible situation.
    By the way, Mr. Chairman, you and I have just signed a 
letter, saying we want Greyhound to be located there. We 
recognize that wouldn't happen immediately, but we have just 
signed a letter, a bipartisan letter. And, by the way, 
everyone, Greyhound bus station there, and then I don't know 
what you do with these 50 buses if Greyhound came there.
    Mr. Oberstar. Madam Chair, you have picked up on a very 
important theme--I recognize and I think we are both singing 
the same theme here--that The Chief and Mr. Moneme have a very 
difficult job to do, but we should not let the security 
considerations become yet another impediment between the people 
of this Country and their Capitol.
    I mentioned very early on, just casually, how things were 
50 years ago when I was a graduate student here. Times change. 
We recognize this is a new era, but security is trumping 
everything, and overweening emphasis on security is going to 
make our Nation's Capital so discouraging to people from the 
Heartland.
    Ms. Norton's constituency is the District of Columbia, is 
all the people who live here, work here, recreate here. She 
also has a responsibility to those who come from around the 
Country, throughout the United States and from abroad to visit 
this Capital, and she discharges that responsibility 
exceedingly well.
    I think the net result of these security schemes is going 
to be to discourage people to visit our Nation's Capital. You 
are going to make it so arduous, so complex and, yes, some 
additional cost, that people are going to say it is just not 
worth it. It is just not worth it.
    I don't want to see that happen, and I think from a 
business standpoint the District of Columbia should not want to 
see that happen. Tourism is a massive economic factor in the 
life blood of this city. We have begun a dialogue, and we will 
pursue the dialogue further.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Indeed, I would appreciate both of you and whomever else 
you think is relevant making an appointment so that we can see 
if we can get from the testimony that is to come after you and 
perhaps our own thinking, some, if not alternatives, some 
supplements to what you are speaking about.
    Mr. Chairman, before you go, what you brought out in terms 
of interoperability--here I am sitting as a Member of the 
Homeland Security Committee--stunned me. I have been under the 
impression that the Capitol Police had interoperability at 
least with the D.C. Police Department and with a number of 
others. What good are they if they do not have 
interoperability.
    Do you have it with anybody?
    Mr. Oberstar. A 25-year-old system, it is astonishing.
    Ms. Norton. I can't. I just can't believe this. We have 
been in danger all this time is all I can say. All you know is 
once people get here, sir. Who is going to say?
    The Paul Reveres are all out there including the District 
of Columbia Police Department. This is extremely disturbing.
    Mr. Chairman, if you would, I believe we should write a 
letter to the Appropriations Committee, indicating our concern.
    Mr. Oberstar. Madam Chair, I asked the Chief to share with 
the Committee for you, for Mr. Graves, for Mr. Mica, myself at 
least, their report and their recommendations which are 
forthcoming in a week as I understand it. We ought to get 
together, evaluate that report and take whatever action we 
think is appropriate then. We should do it at that point.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Mr. Oberstar. We might convene not a Committee meeting but 
just, as I call it, a comitia meeting.
    Ms. Norton. A comitia meeting, all right. We certainly want 
to be helpful here.
    Quite apart from security, imagine the transportation nexus 
between Capitol Police now and the District of Columbia as you 
move toward this, what amounts to a joint system, and not 
having interoperability. Forgive me.
    Chief, I do have another question. You heard me ask the 
preceding panel whether with turnover of vehicles we are 
committed to alternative fuel vehicles. What can you tell me 
about the Capitol Police?
    What is your fleet? How big is your fleet? How often are 
they replaced?
    Chief Morse. We have 237 motorized vehicles; 67 are 
motorcycles.
    Ms. Norton. Please speak up. I can't hear you.
    Chief Morse. We have 237 motorized vehicles, 67 
motorcycles. Also included in our fleet vehicle inventory are 
the mobile signage, mobile lights and those types of things.
    With respect to vehicles that are alternative fuel 
vehicles, we currently have 15 hybrid or E85 battery-operated 
vehicles. At my direction, all replacement vehicles with 
respect to patrol type cars and motorized vehicles will be E85.
    We currently lease 16 DPDs, our Dignitary Protection 
Division. We have Suburbans. Those are E85 that we lease.
    So this year in fiscal year 2008, we will replace three new 
vehicles with E85. So we are replacing vehicles as budget 
allows and recycling process.
    We get about 120,000 miles on a vehicle. Probably somewhere 
in the neighborhood of four to six years is the life cycle. So 
it is a slow transition.
    Ms. Norton. Well, congratulations, Chief Morse. You are 
living up the Speaker's greening of the Capitol goals.
    If I can ask you, Mr. Moneme, is the District of Columbia 
also replacing vehicles only with alternative vehicles?
    Mr. Moneme. Actually, when Mayor Fenty came into office, a 
new directive was given. A new directive was given for all new 
sedan type vehicles, to purchase alternative fuel hybrid 
vehicles, and we have been doing that. Actually, the directive 
was given to reduce the size of the fleet over the next several 
years.
    I don't have a specific count for us as we have, in 
addition to sedans, we also have heavy equipment that we 
operate that they don't have hybrid alternatives quite yet for, 
but that has been a goal of ours.
    In addition, I will add the car-sharing program. The 
District has been a very strong supporter of that program since 
2002, in fact, identifying spots for Flexcar and Zipcar 
throughout the city to locate those car-sharing vehicles. One 
of the new initiatives that the Mayor has announced or is 
working on is to look at expanding the use of car-sharing 
within the District of Columbia, so professional staff and all 
workers can share vehicles instead of having one vehicle for an 
individual.
    So those are some of efforts we are making to reduce our 
carbon footprint.
    Ms. Norton. Thank you very much, Mr. Moneme.
    Final question for the Chief. I have forgotten his name but 
the predecessor person for the prior Speaker. Staff and I went 
looking for possible headquarters. Yes, Ted Vandermeter, who 
was very interested in the by now perennial process of trying 
to find a police headquarters. We went up in NOMA. He should 
have bitten while the bite could come because that is certainly 
being eaten up now by private sector and other government 
agencies.
    I don't know where you are nor do I know if the Congress 
would fund a new police headquarters, but may I ask you on the 
status of that matter before you leave us?
    Chief Morse. The radio system was one of my number one 
priorities last year.
    We are looking at the various recommendations for 
headquarters buildings that have been proposed of the past. We 
certainly are working very closely with the Architect of the 
Capitol regarding various facilities that we need to help our 
security operations continue.
    So we are actively working on space that we have, leased 
space that we have, the possibility of acquiring current leased 
space to be our own, but there are a lot of different options 
out there before we make a proposal.
    Ms. Norton. Chief Morse, let me say the options are 
fleeting quickly. At one point, I was told we want to make sure 
we are on Capitol Hill. Forget about it again.
    The private sector understands where the action is. If you 
want a headquarters with a downturn, if you wanted to advocate 
for it with a downturn in the economy, it would be the time to 
begin looking.
    There has been a feeling that it ought to be on Capitol 
Hill? Why? It reached to the point where it ought to be and 
obviously has to be in the District of Columbia, and you passed 
up, you, your predecessors, many predecessors before you have 
passed up other sites. It is unlikely to be on Capitol Hill. 
Just carry that back to whoever is talking about Capitol Hill.
    If it is not on Capitol Hill, with sites rapidly going, we 
are building on every blade of grass in the District of 
Columbia. The only thing we won't build on is real park land 
and Federal land, and we are going to keep doing it. It is the 
only way to keep alive.
    So that, at the very least if you want headquarters, 
somebody better put a stake in the ground on some site within 
the next year or so or else there are going to be no sites 
left. I am just giving you that advice as the Member who does a 
lot of the development for the Federal Government, much of it 
in the District of Columbia and just sees there is no place to 
go now.
    We are going across the river to St. Elizabeth's for the 
largest Federal agency except for the Pentagon, the Department 
of Homeland Security. If you think the Federal Government would 
easily go to the old St. Elizabeth's, you don't understand the 
nature of land availability. We are going there because we own 
the land and there is no place else to go.
    So I would suggest, not that it can be funded, but at least 
you try to focus on a site if you are serious. Otherwise, you 
are going to be stuck where you are and then looking for off-
site places for parts and parcels in office buildings, frankly, 
to go to.
    Thank you both very much. It was very helpful. We will just 
sit and talk and see if there is anything more can be done on 
this transportation matter.
    I appreciate very much the way you have worked together and 
how far you have come.
    May we ask Peter Pantuso, President and Chief Executive 
Officer, American Bus Association, and James Pew of 
EarthJustice? We appreciate your patience. The only way to 
learn is to keep a dialogue going and try to find out where we 
are.
    We are going to try to quickly take this testimony. Both of 
you are very important to this hearing.
    Mr. Pantuso, why don't we begin quickly with you?

   TESTIMONY OF PETER PANTUSO, PRESIDENT AND CHIEF EXECUTIVE 
 OFFICER, AMERICAN BUS ASSOCIATION AND JAMES PEW, EARTHJUSTICE

    Mr. Pantuso. Thank you, Madam Chair, and thank you for your 
leadership in convening this hearing.
    The American Motorcoach Association is quite diverse with 
both large and small companies, and we provide nearly 600 
million passenger trips yearly, nearly the equivalent to what 
airlines provide. Most of my Members bring school groups, 
senior citizens and veterans to Washington, D.C. and each 
spring nearly 1,000 coaches a day come to the District with as 
many as 55,000 people.
    The testimony today is also supported by four other trade 
associations and organizations whose members are engaged in 
bringing visitors safely to the Nation's Capital.
    We believe the proposal for the CVC transportation, if 
implemented as drafted, would be a disaster. People attempting 
to visit the CVC by motorcoach, as was stated, would arrive at 
Union Station, disembark, then be reloaded onto other buses, 
likely Circulators or even smaller vehicles. They would pay an 
additional dollar per trip to travel six blocks.
    Now we understand that this proposal is advanced in the 
name of security, and motorcoaches are assumed to be more of a 
threat than D.C.'s transit buses.
    Motorcoach visitors are very important to the area's 
economy. As many as one-third of D.C.'s visitors may come by 
coach or ride private buses once they arrive. A George 
Washington University study estimated that each motorcoach, 
arriving for an overnight stay, leaves approximately $8,000 per 
day in the local economy. So that is as much as $8 million a 
day for all coaches.
    Our coalition's concerns with the current proposal are, 
first, that Union Station does not have the space to 
accommodate the number of coaches. There is no way a fraction 
of 1,000 coaches can be accommodated in front of Union Station 
or behind especially when you realize that an equal number of 
Circulators, in fact more than an equal number because of their 
smaller size, would be there to meet those visitors 
disembarking.
    In addition, motorcoaches are the friendliest, 
environmentally friendliest form of transportation. Adding 
another one and a half vehicles per coach is a bad 
environmental policy.
    Second, most motorcoach passengers coming to D.C. are part 
of a group, mostly students this time of the year to see their 
government in action and meet their representatives. The CVC 
transportation proposal will make it more difficult for groups 
to stay together since they will be separated on their way to 
and on their way from the CVC, and that is not safe.
    Third and most important is the assumption that the 
Circulator buses are more secure than private coaches and less 
of a threat to the Capitol Complex.
    Well, this is simply not true. Motorcoaches carry people 
who are not strangers to one another. Their security comes from 
knowing who is on the bus. That is not the case for the city 
bus where the general public can board.
    The scenario really begs the question, which group has 
better security?
    Security on coaches is most often enhanced in D.C. by D.C. 
guides who undergo background checks, and many of the city's 
transit buses use compressed natural gas which is more 
explosive than the diesel used by coaches.
    Finally, while private coaches are banned from the Capitol 
Complex, the ban is neither uniform nor logical since, as was 
said earlier by the Chief, those same types of vehicles 
providing commuter service to Maryland and Virginia can proceed 
along the streets adjacent to the Capitol.
    It is not the motorcoach that is the security problem. It 
is people within any potential vehicle.
    There are several ways where security can be maintained 
without banning coaches. We could put in place a tour bus 
inspection system, enabling coaches to move to the closest 
dropoff point nearer the new CVC.
    Prescreening could be done including preregistration of 
companies or company-based clearances. In fact, one-third of 
all the coaches in the Country have already been cleared for 
military moves.
    There could be advanced screening of vehicles and their 
contents. Baggage bays could be left empty, and timed tours of 
the CVC could be put in place.
    There could be an identified area close to the CVC that can 
serve as a screening area and holding area for the empty buses. 
Our group would be happy to work with the city to find an 
appropriate location. It is something the city and the District 
have talked about for the past decade, and it is really quite 
ironic that there exists screening areas for cargo trucks 
coming to the Capitol Complex but not for people who arrive 
here.
    Identifying a dropoff location for security-cleared buses 
to drop their passengers, so everyone would have easy 
pedestrian access without paying a dollar is another option.
    Finally, a communications plan that educates our industry, 
the motorcoach and tour operators, on implementation of this 
plan.
    Our coalition would be pleased to use our collective 
resources to assist in all of these efforts, and we want to 
work with Congress, with the Capitol Hill Police and DDOT, and 
with the CVC to maintain security without clogging Columbus 
Circle or destroying visitation to the region or limiting the 
people's ability to see their Capitol and meet with their 
Members of Congress.
    Certainly, Madam Chair, we would be more than pleased to 
meet with you, the Chief, with Mr. Moneme and others as we 
discuss further options for transportation of visitors to the 
city.
    Thank you very much.
    Ms. Norton. Thank you, Mr. Pantuso.
    Mr. Pew.
    Mr. Pew. Thank you, Chairman Norton.
    My remarks focus on the aspect of the Capitol Complex that 
has the biggest impact on public health and the environment in 
the District, and that is the Capitol Power Plant.
    Based on its coal consumption as reported in the Washington 
Post last year as well as its size in comparison to relatively 
similar units and its inclusion on a list of affected 
facilities by the Environmental Protection Agency, the Capitol 
Power Plant is a major source of hazardous air pollutants. If 
that is correct, it is currently operating in direct violation 
of the Clean Air Act.
    In the Clean Air Act amendments of 1990, Congress listed 
more than 170 pollutants as hazardous based on their potential 
to cause cancer and similarly devastating adverse health 
effects. A major source, as the Capitol Power Plant appears to 
be, has the potential to emit these pollutants in large 
quantities, at least 10 tons a year of any single hazardous air 
pollutant and at least 25 tons a year of any combination of 
hazardous air pollutants.
    The Environmental Protection Agency has stated that the 
type of boilers that the Capitol Power Plant operates, in 
particular the coal-fired boilers, emit hazardous air 
pollutants including toxic metals like mercury, arsenic and 
lead; toxic organic pollutants including benzine, formaldehyde 
and dioxins, all of which are known or suspected carcinogens; 
and toxic acids including hydrochloric acid and hydrofluoric 
acid.
    These pollutants are not, of course, emitted into a remote 
area. They are emitted into a densely populated city.
    One might expect that a major source of hazardous air 
pollutants located in the heart of the Nation's Capital would 
be closely monitored, that its emissions would be closely 
monitored and its emissions would also be subject to strict and 
protective standards.
    In fact, the Capitol Power Plant does not today meet any 
emission standards for its hazardous air pollutants. Its permit 
does not contain any emission limits for its hazardous air 
pollutants or any schedule for meeting limits in the future. In 
fact, the Capitol Power Plant does not even report how much it 
emits of the different hazardous air pollutants or what they 
are.
    Now the problem for a long time was entirely the fault of 
EPA. By 2000, the Clean Air Act required EPA to set emission 
standards not just for the Capitol Power Plant but for all of 
the industrial boilers of this type throughout the Country.
    EPA defied that statutory deadline until 2004 and then 
issued standards that were hopelessly defective, so defective 
that they left most of the hazardous air pollutant emissions 
from boilers completely uncontrolled and so defective that they 
were vacated as flatly unlawful by the D.C. Circuit in 2007, so 
that now in 2008 we are in the same sorry situation that 
Congress tried to fix in 1990 by amending the Clean Air Act. 
There are no controls for these pollutants.
    Congress did anticipate that EPA would fail in its mission. 
That is both sad to say, but also it is a good thing that 
Congress anticipated it. It enacted a backup provision which is 
know as the Hammer.
    As both EPA and the Department of Justice have recognized, 
this Hammer provision was triggered by the D.C. Circuit's 
vacation of EPA's rule. What it means is that as a condition of 
continued operation, the Capitol Power Plant had to submit a 
permit application to the District, requesting limits on all of 
the hazardous air pollutants that it emits.
    The obligation to get that permit application in accrued on 
July 30, 2007 when the D.C. Circuit's decision became final. 
That is more than seven months ago, and yet the operators of 
the Capitol Power Plant, that is the Architect of the Capitol 
and the General Services Administration, have not submitted a 
permit application. Every day that they continue to operate 
without submitting this application is another violation of the 
Clean Air Act.
    The process of submitting an application is far from 
burdensome. The National Association of Clean Air Agencies, 
which is the organization representing virtually all of the 
State and territorial agencies that act as permitting 
authorities in all of the 50 States and I believe all of the 
territories, has estimated that completing this application 
would take four hours or less. In the seven months since July 
30th, 2007, the Architect of the Capitol has had ample 
opportunity to put in the four hours of effort necessary to get 
this application in.
    To conclude, the Federal Government should not be acting in 
violation of Federal law. That is fundamental. But this 
application is not just an exercise in paperwork. It is a 
necessary beginning to the process of finally getting limits on 
toxic emissions from the Capitol Power Plant and finally 
providing the protection that Congress intended to provide for 
the District's residents who are exposed to these emissions.
    The last point I would like to make is that as important as 
the Capitol Power Plant is, it is not the only Federal facility 
that is in violation of the law. Virtually, every Federal 
facility that operates a similar boiler is also in violation of 
this requirement as are thousands of privately owned boilers.
    We hope that this Committee will look into the Federal 
facilities and, if necessary, refer the question of the 
privately owned facilities to the appropriate Committee.
    Thank you.
    Ms. Norton. Well, thank you both for that testimony.
    I specifically ask that you both be added to the agenda. I 
don't believe in hearing from government witnesses alone even 
when they are as credible as our prior witnesses have been. You 
have already told me things I didn't know and things that raise 
issues for us.
    Mr. Pantuso, where would you like the buses to drop people 
off?
    I am real results-oriented on these matters. Bearing in 
mind all of the competing issues that I think must be 
legitimately taken into account, where would you like the buses 
to drop off?
    Mr. Pantuso. Under the best scenario, Madam Chair, we would 
love to have them dropped off right at the Visitor Center. We 
understand.
    Ms. Norton. Well, you know what? You are not going to drop 
them off where my constituents live. So they are not going to 
have buses going back and forth near East Capitol Street, and I 
think you would understand that.
    Mr. Pantuso. Absolutely, but we would certainly like them 
as close to the Visitor Center as possible. We don't see Union 
Station as being any kind of an objective alternative.
    Ms. Norton. Well, let me ask you, don't you already drop 
people off at the Botanic Gardens?
    Mr. Pantuso. We absolutely do. That is the current dropoff 
point for groups that are coming to the Capitol, the bottom.
    Ms. Norton. Are you screened before you drop people off 
there?
    Mr. Pantuso. Absolutely not.
    Ms. Norton. Have you suggested anything about the Botanic 
Gardens to any of the parties involved?
    Mr. Pantuso. We have discussed this issue a number of times 
both with the Capitol Police, and we have also discussed it 
with Mr. Moneme as recently as last December.
    The concern over having Circulator buses or other buses 
meet these current motorcoaches is you would have to have a one 
for one situation in addition to the fact that the general 
public rides Circulator buses. When you have a group of school 
students, maybe an eighth grade history class, and you might 
have as many as three to five buses, to expect them to split 
them on Circulators that come by on an infrequent basis is just 
a disaster waiting to happen.
    Ms. Norton. They would come by where, Mr. Pantuso?
    Mr. Pantuso. Well, if they are coming by Union Station or 
any other point.
    Ms. Norton. Well, they could dedicate Circulator buses.
    Mr. Pantuso. Absolutely.
    Ms. Norton. They would have to do that, wouldn't they?
    Mr. Pantuso. Yes, ma'am.
    The great thing about the motorcoach and the way the system 
works right now is the groups stay together. There is safety in 
staying together. Certainly that was evident after 9/11 when 
groups traveling wanted to be as close together as possible. 
Well, groups coming from out of town are no different than any 
other group in the Country. They want to be with their own.
    In addition, you have schools that are sending countless 
millions of students here for study, for different programs, 
for educational purposes. There is a tremendous liability when 
you begin to split those groups up into smaller groups.
    Ms. Norton. I want to say before I go any further, Mr. 
Pantuso, not only do I intend to meet with the Capitol Police 
and our own D.C. officials, but later on I would like to have 
all of us in a meeting together. I just believe that these 
things can only be worked out when everybody is at the table 
because I do see issues that you raise and I see issues that 
they raise.
    That is why I like the adversarial system. You hear it all 
out, and then maybe you can figure something out.
    Mr. Pantuso. Thank you.
    Ms. Norton. I am astonished, Mr. Pew, by your testimony in 
light of the testimony we just received from the Architect of 
the Capitol. The Architect left us believing that he was in 
compliance with regulations, and you appear to cite chapter and 
verse to the contrary.
    Is the Architect exempt from the requirement, for example, 
to file for a permit?
    Mr. Pew. No. The Architect is in the same position as any 
other owner or operator of a major source of hazardous air 
pollutants.
    Ms. Norton. So there is nothing in Federal law, whether in 
EPA regulations or law that we pass, that would exempt the 
Architect from filing for a permit?
    Mr. Pew. No, not that I am aware of.
    Ms. Norton. What would be implications of filing for a 
permit?
    Mr. Pew. Filing this application for a permit would start 
the process of getting from D.C., limits on all of the toxic 
air pollutants.
    Ms. Norton. Of doing what? Sorry.
    Mr. Pew. Of getting emission standards for all, a specific 
permit, specific limits on all of the toxic air pollutants that 
the Capitol Power Plant emits.
    Ms. Norton. Do you think that perhaps because, well, you 
understand the situation we are in, that the Speaker is in, 
that I am in, that there are some Senators apparently from 
coal-producing States who are standing in the way of getting 
what we have already gotten passed in the House.
    If it starts a process that requires something, it is a 
non-starter because that is not allowed. We live in the kind of 
Country where some people from some part of the Country can 
stop others.
    I hate ethanol. I see what it is doing to food all over the 
world, but until we get into some crisis, you are going to have 
ethanol. Everybody thinks that is a great answer. That is the 
way in which we work things out here.
    If, in fact, this starts some kind of legal process, that 
would be reason enough for a permit not to be required, given 
the fact that the Congress is not, at this point, going to 
allow that process to go ahead. Is that the case?
    Mr. Pew. I don't think so, Your Honor. I do understand that 
there is political opposition to the idea of cleaning coal out 
of the power plant.
    Ms. Norton. Isn't the House committed to capturing the 
carbon emissions and the rest in any case from the power plant? 
Isn't that the plan?
    Mr. Pew. I hope so, Your Honor, but this actually has to do 
with their hazardous air pollutants and not their carbon 
emissions. For that reason, I don't think that this should run 
into any opposition.
    Ms. Norton. So if they filed for a permit, then what would 
they have to do?
    Mr. Pew. Well, then the ball would be in the court of the 
D.C. Government. The D.C. Government would have 18 months to 
review that permit and ultimately set standards.
    Ms. Norton. See, that is the problem. You and I have to 
meet you. Because of something called Federal Supremacy, the 
District of Columbia can't set standards for the Federal 
Government.
    We have to figure out a way in the same way we did with the 
so-called compliance commission we have that says we, the 
Congress of the United States, have to abide by the same laws 
as everybody else. We have to abide by the EEO laws. We have to 
abide by other labor laws and so forth.
    You would have thought that would also apply, and I think 
it does, to the environmental laws. We have a political problem 
we can't get around. I am looking for a solution.
    If all it does is trigger a local jurisdiction telling the 
Federal Government what to do, that is a non-starter. It may be 
that we have to, in fact, pass a piece of legislation that says 
you can continue to use coal. The Senators say you don't have 
to, but you still have to go through this permit process to 
reduce as far as possible hazardous materials.
    Nothing of that kind is being done now, Mr. Pew?
    Mr. Pew. That is correct, Madam Chair.
    Ms. Norton. Nothing is being done?
    Mr. Pew. Nothing of that kind is being done, and complying 
with this permit application process wouldn't necessarily lead 
to the elimination of coal. The Clean Air Act is neutral on how 
the Capitol Power Plant or any other source would reduce its 
emissions of toxic pollutants.
    Ms. Norton. So I am going to find out following this 
hearing, within 30 days, why there is no permit. I am going to 
hear from them, the Architect, that is, why there is no permit 
being requested.
    Now you say there is no reporting. Didn't you say that as 
well?
    Mr. Pew. With respect to the hazardous air pollutants, that 
is correct.
    Ms. Norton. By hazardous air pollutants, you mean what, for 
example?
    Mr. Pew. Well, mercury would be a good example, or lead or 
arsenic, all of which are trace elements in coal and are 
emitted by all coal-fired boilers.
    But the hazardous air pollutants I am talking about are the 
ones. There is a list of 170 or so hazardous air pollutants in 
the Clean Air Act itself, but they include and the ones that 
are of particular concern in this city because of the power 
plant, I would say, would be mercury and lead and arsenic as 
well as the acid gases.
    Ms. Norton. Well, it certainly is because we find trace 
amounts of lead in our children in very disproportionate 
numbers.
    I thought you were talking about CO2 emissions. You are 
talking about hazardous substances.
    Mr. Pew. Yes.
    Ms. Norton. You are saying nothing is being done to 
eliminate.
    Mr. Pew. That is correct.
    Ms. Norton. How about the kind of coal being used?
    Mr. Pew. I don't know what kind of coal the Capitol Power 
Plant uses. I think it would be a very interesting question to 
learn the answer to.
    Ms. Norton. Well, one of the things we have to find out is 
whether or not we use the cleaner coal or whether we are using 
the same old dirty stuff, but above all I want to measure what 
is coming out of there. You are telling me nobody is measuring, 
nobody knows?
    Mr. Pew. Nobody is measuring it. A review of the Capitol 
Power Plant's permit does not indicate or does not provide any 
information about which of these hazardous air pollutants is 
coming out and how much. As far as I know, there are no 
requirements that they be tested, but it is not impossible to 
test. I mean there are stack tests for a lot of plants.
    Ms. Norton. Do you see a remedy for this in light of the 
fact that we are blocked from getting rid of the coal power 
plant?
    Mr. Pew. I think.
    Ms. Norton. Given that that is on the table, are there ways 
to reduce the hazardous materials coming from this coal?
    Mr. Pew. There are other ways to reduce the hazardous air 
emissions coming from the coal. I mean my opinion is the most 
sensible way is to stop burning the coal, but if it is 
impossible to stop burning the coal, there are controls that 
can be used that would reduce.
    Ms. Norton. At the power plant?
    Mr. Pew. At the power plant.
    Ms. Norton. I would ask you, Mr. Pew, because I believe the 
Speaker of the House would be very open to, in fact, 
implementing at least that. Remember what we have done with CO2 
already even though we are getting the coal.
    I would very much like to have in writing what you think 
could be done to reduce the emissions of hazardous substances 
which affect mostly children, to be frank. The older you get, 
the more immune you are because you have lived through 
absorbing it all your life.
    This is very, very disturbing to me, and I am not sure it 
is understood here. So I would very much appreciate your 
testimony.
    What other Federal facilities are in violation in the sense 
that they are emitting hazardous substances?
    Mr. Pew. I can't provide other examples, although I do have 
a list that I can provide after the meeting.
    Ms. Norton. I wish you would because you said that there 
were other Federal facilities.
    Mr. Pew. There are other Federal facilities. EPA has 
provided or has compiled a database of facilities. It is easy 
to isolate the Federal facilities on that database. All of them 
that operate boilers such as the boilers that operate at the 
Capitol Power Plant, if they run on coal or even if they run on 
oil, they are emitting hazardous air pollutants.
    Ms. Norton. Yes, thank you.
    I must say, Mr. Pantuso, as helpful as your testimony was, 
I have a hard time with 1,000 private motorcoaches. I just 
don't think that we get that many motorcoaches.
    Mr. Pantuso. That was a number.
    Ms. Norton. I mean you know exactly how many motorcoaches 
come to the Botanic Gardens. How many of those?
    Mr. Pantuso. I don't know that number.
    Ms. Norton. Would you submit that number to us?
    Mr. Pantuso. I will get that for you.
    Ms. Norton. We want real numbers. We don't believe in any 
1,000 that get up here.
    Mr. Pantuso. No. Actually, the 1,000 came in testimony from 
the tourism office a number of years ago. That was the 
estimate.
    Ms. Norton. Our tourism office?
    Mr. Pantuso. Yes, ma'am, from DC.
    Ms. Norton. What do you mean coming to the Capital? Would 
you submit to us, within 30 days, the number of buses that come 
to the Botanic Gardens every day? I mean I am looking for a way 
to do this.
    Mr. Pantuso. Absolutely, we will do that.
    Ms. Norton. Now you heard in prior testimony that 50 spaces 
are being dedicated for your buses. What is wrong with that?
    Mr. Pantuso. Well, that is not quite accurate. There may be 
50 space over there, but some of those are already in contract 
with some other bus companies.
    Ms. Norton. No. Wait a minute. If that is true, I am going 
to find out because they testified, I thought, that there were 
50 dedicated spaces.
    Mr. Pantuso. There may be but, for example, the Martz 
Company which runs Greyline has some dedicated.
    Ms. Norton. Who?
    Mr. Pantuso. Martz Company.
    Ms. Norton. Excuse me. You think the 50 means total?
    Mr. Pantuso. I think the 50 means total. That is correct.
    Ms. Norton. Oh, awful, because my question went to 
dedicated spaces.
    Mr. Pantuso. And they are dedicated for coaches, but I 
believe some of those are already tied up, and we will be happy 
to find that answer out for sure.
    Ms. Norton. Oh, I know some of them are already tied up 
because anybody who goes up there sees that some of them are 
tied up.
    Mr. Pantuso. Again, a lot of those spaces are for people 
who are visiting Union Station at that time, when you put into 
the mix.
    Ms. Norton. This is a clarification we are going to need to 
get. It all sounds fishy to me, frankly, that all of a sudden 
everybody comes in, it is all hunky-dory.
    Mr. Pantuso. Ma'am, Union Station is a member of the 
association. So I will be glad to contact them and get their 
number directly.
    Ms. Norton. Thank you.
    I do agree with you that everybody knows everybody on the 
bus already. If there was some way to secure so that everybody 
got on that bus was known ahead of time and you could secure 
that, you would be ahead of the game.
    But your suggestion, I am not sure you heard what the 
Capitol Police said. They said they already don't have the 
funds needed, they think, to do all the security that needs to 
be done, and you want them to do a whole lot more security.
    Mr. Pantuso. Well, I appreciate that, but I also heard Mr. 
Moneme say that he needed $3.2 million for Circulator buses and 
I wonder if some of that $3.2 million for buses that really 
aren't needed could be dedicated for security and screening.
    Ms. Norton. Well, his buses would not just go for coming up 
here. He is trying to deal with tourism in the District of 
Columbia as well, and he says that some of these buses will 
take people, essentially drop them off.
    I am not sure, though, whether those are the same people 
that are coming on your buses at all. If they are dropping them 
off, they are probably coming some other form and fashion.
    Mr. Pantuso. I can tell you with a lot of certainty, the 
Circulator buses that are operating today are not moving our 
passengers that are coming into town. Those passengers are 
staying with the vehicle that they came in with. When you see 
them lined up along the streets downtown, they are waiting for 
a group that is coming back out.
    Ms. Norton. We don't like that, Mr. Pantuso. We know we 
haven't given you any place to go and no place to hide, but we 
also don't like you lining our Mall, but we haven't given you 
any other place to go.
    Mr. Pantuso. No, absolutely. The city said they were going 
to do it 10 years ago, and they still haven't done it.
    Ms. Norton. I want to look into that matter when I see Mr. 
Moneme. That is why you haven't heard me complain about it. You 
can't say scat if there is no place to scat to.
    I don't see a perfect solution for either of you. I think 
your testimony has been every bit as vital as the prior 
testimony, every bit as vital.
    I ask you to submit the material I have requested. I think 
we can get some action from the Speaker whom I have just gone 
with on a climate change tour. On hazardous substances that 
could be infecting our children, this is one of our main, not 
only climate change but children. So that is extremely 
disturbing.
    Mr. Pantuso, you have been left between a rock and a hard 
place since I was a child. You all just come here, bring as 
many people as you can and just find a place to go and hang 
out. We are going to find you some place in the District of 
Columbia or close by. I want to talk to you about that.
    I do mean that I am going to have a problem-solving session 
first with my own folks. Then I want to meet privately with 
you, and then I want us all to get together.
    Mr. Pew, I think all you need to do is to get me some of 
that material, some of that data.
    Mr. Pew. It would be a pleasure.
    Ms. Norton. Thank you both for your great patience in 
staying through the cross examination we went through with your 
predecessors, and I appreciate your testimony.
    Mr. Pantuso. Thank you, Madam Chair. We appreciate it.
    Ms. Norton. Thank you very much.
    This hearing is adjourned.
    [Whereupon, at 1:37 p.m., the Subcommittee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
</pre></body></html>
